No. _________

IN THE

Supreme Court of the United States
_____________________________

MARK ALLEN JENKINS,
Petitioner,
v.
JEFFERSON DUNN,
COMMISSIONER OF THE ALABAMA
DEPARTMENT OF CORRECTIONS,
Respondent.
_____________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit
_____________________________

PETITION APPENDIX VOLUME 1
_____________________________
Joseph T. Flood
SHELDON & FLOOD, P.L.C.
10621 Jones Street
Suite 301A
Fairfax, VA 22030

Mridula S. Raman
Counsel of Record
Ty Alper
Elisabeth A. Semel
DEATH PENALTY CLINIC
UNIVERSITY OF CALIFORNIA, BERKELEY
SCHOOL OF LAW
Berkeley, CA 94720
(510) 642-5748
mraman@berkeley.edu

Counsel for Petitioner

TABLE OF CONTENTS
Jenkins v. Commissioner, Alabama Department of Corrections,
963 F.3d 1248 (11th Cir. 2020) ........................................................................ 001a

i

001a
1248

963 FEDERAL REPORTER, 3d SERIES

III.
I believe a second jury should have decided Mr. Pon’s guilt or innocence. For
this reason, I dissent from the majority
opinion’s holding that any error in Mr.
Pon’s case was harmless.

,
Mark Allen JENKINS, PetitionerAppellant,
v.
COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.
No. 17-12524
United States Court of Appeals,
Eleventh Circuit.

to, or unreasonable application of,
Strickland;
(3) state court’s finding that petitioner
failed to establish intellectual functioning aspect of intellectual disability was
not contrary to, or unreasonable application of, Atkins;
(4) state court’s finding that petitioner
failed to establish adaptive-skill component of intellectual disability was
not contrary to, or unreasonable application of, Atkins; and
(5) petitioner failed to establish age-ofonset component of intellectual disability, as would render him ineligible for
death penalty under Atkins.
Affirmed.
Wilson, Circuit Judge, dissented and filed
opinion.
Opinion, 936 F.3d 1252, superseded.

(June 29, 2020)
Background: Following affirmance of his
conviction in state court for capital murder, 627 So.2d 1054, and affirmance of
denial of post-conviction relief, 105 So.3d
1234, petitioner filed federal petition for
writ of habeas corpus. The United States
District Court for the Northern District of
Alabama, No. 4:08-cv-00869-VEH, Virginia
Emerson Hopkins, J., 2015 WL 1488899,
denied petition. Petitioner appealed.
Holdings: The Court of Appeals, Branch,
Circuit Judge, held that:
(1) rejection of claim that penalty-phase
counsel was deficient in failing to investigate compelling mitigating evidence about petitioner’s childhood
abuse was not contrary to, or unreasonable application of, Strickland;
(2) rejection of claim that penalty-phase
counsel’s alleged deficiency in failing
to investigate compelling mitigating
evidence about petitioner’s childhood
abuse was prejudicial was not contrary

1. Habeas Corpus O842
Appellate court reviews the denial of a
federal petition for a writ of habeas corpus
de novo. 28 U.S.C.A. § 2254.
2. Habeas Corpus O765.1
The Antiterrorism and Effective
Death Penalty Act (AEDPA) establishes a
highly deferential standard for evaluating
state-court rulings, and demands that
state-court decisions be given the benefit
of the doubt. 28 U.S.C.A. § 2254.
3. Habeas Corpus O450.1, 452
‘‘Clearly established federal law,’’
within meaning of Antiterrorism and Effective Death Penalty Act (AEDPA),
means the holdings, as opposed to the
dicta, of the Supreme Court’s decisions as
of the time of the relevant state-court decision. 28 U.S.C.A. § 2254(d)(1).
See publication Words and Phrases
for other judicial constructions and
definitions.

002a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

4. Habeas Corpus O765.1
Under Antiterrorism and Effective
Death Penalty Act (AEDPA), when the
last state court to decide a prisoner’s federal claim explains its decision on the merits in a reasoned opinion, a federal habeas
court simply reviews the specific reasons
given by the state court and defers to
those reasons if they are reasonable. 28
U.S.C.A. § 2254(d)(1).
5. Habeas Corpus O452
For a state-court decision to be contrary to clearly established federal law, for
purposes of Antiterrorism and Effective
Death Penalty Act (AEDPA), the state
court must have applied a rule different
from the governing law set forth in Supreme Court cases, or if it decides a case
differently than the Supreme Court has
done on a set of materially indistinguishable facts. 28 U.S.C.A. § 2254.
6. Habeas Corpus O450.1
An unreasonable application of federal
law occurs, for purposes of Antiterrorism
and Effective Death Penalty Act (AEDPA), if the state court correctly identifies
the governing legal principle from the Supreme Court’s decisions but unreasonably
applies it to the facts of the particular
case; an unreasonable application of federal law is different from an incorrect application of federal law. 28 U.S.C.A. § 2254.
7. Habeas Corpus O450.1
A federal habeas court may not issue
the writ simply because that court concludes in its independent judgment that
the relevant state-court decision applied
clearly established federal law erroneously
or incorrectly; rather, that application
must be objectively unreasonable. 28
U.S.C.A. § 2254(d)(1).
8. Habeas Corpus O450.1
The objectively unreasonable standard
for granting federal habeas relief is substantially higher threshold for obtaining

relief than de novo review.
§ 2254(d)(1).

1249

28 U.S.C.A.

9. Habeas Corpus O450.1
State court’s decision is reasonable,
for purposes of federal habeas review under Antiterrorism and Effective Death
Penalty Act (AEDPA), so long as fairminded jurists could disagree on the correctness of the state court’s decision. 28
U.S.C.A. § 2254(d)(1).
10. Habeas Corpus O450.1
Even a strong case for federal habeas
relief does not mean the state court’s contrary conclusion was unreasonable under
Antiterrorism and Effective Death Penalty
Act (AEDPA). 28 U.S.C.A. § 2254(d)(1).
11. Habeas Corpus O450.1
To obtain federal habeas relief under
Antiterrorism and Effective Death Penalty
Act (AEDPA), a prisoner must show that
the state court’s ruling was so lacking in
justification that there was an error well
understood and comprehended in existing
law beyond any possibility for fairminded
disagreement. 28 U.S.C.A. § 2254(d)(1).
12. Habeas Corpus O767
Deference accorded to state court’s
findings of fact requires that federal habeas court more than simply disagree with
state court before rejecting its factual determinations; instead, it must conclude
that state court’s findings lacked even fair
support in record. 28 U.S.C.A. § 2254.
13. Habeas Corpus O846
When a federal habeas court makes a
factual finding as part of its habeas determination, appellate court reviews for clear
error, which is a highly deferential standard of review. 28 U.S.C.A. §§ 2254(d)(2),
2254(e)(1).
14. Habeas Corpus O846
A federal habeas court’s factual finding is ‘‘clearly erroneous,’’ within meaning

003a
1250

963 FEDERAL REPORTER, 3d SERIES

of Antiterrorism and Effective Death Penalty Act (AEDPA), when although there is
evidence to support it, the reviewing court
on the entire evidence is left with the
definite and firm conviction that a mistake
has been committed.
28 U.S.C.A.
§ 2254(d)(2).
See publication Words and Phrases
for other judicial constructions and
definitions.

15. Criminal Law O1882
A prisoner alleging that he received
ineffective assistance of counsel in violation
of the Sixth Amendment must first show
that counsel’s performance was ‘‘deficient’’;
in other words, he must show that counsel
made errors so serious that counsel was
not functioning as the counsel guaranteed
the defendant by the Sixth Amendment.
U.S. Const. Amend. 6.
See publication Words and Phrases
for other judicial constructions and
definitions.

16. Criminal Law O1870, 1871
Court must indulge strong presumption that counsel’s conduct falls within
wide range of reasonable professional assistance; every effort must be made to
eliminate the distorting effects of hindsight, to reconstruct the circumstances of
counsel’s challenged conduct, and to evaluate the conduct from counsel’s perspective
at the time. U.S. Const. Amend. 6.
17. Criminal Law O1883
A defendant alleging that he received
ineffective assistance of counsel in violation
of the Sixth Amendment must show that
counsel’s deficient performance prejudiced
the defense. U.S. Const. Amend. 6.
18. Criminal Law O1883
Prejudice occurs, for purposes of establishing ineffective assistance of counsel,
when there is a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would
have been different. U.S. Const. Amend.
6.

19. Criminal Law O1959
When a defendant challenges a death
sentence on ground of ineffective assistance of counsel, question is whether there
is a reasonable probability that, absent the
errors, sentencer, including appellate
court, to extent it independently reweighs
the evidence, would have concluded that
balance of aggravating and mitigating circumstances did not warrant death. U.S.
Const. Amend. 6.
20. Criminal Law O1883
To establish prejudice for purposes of
ineffective assistance of counsel, likelihood
of a different result must be substantial,
not just conceivable. U.S. Const. Amend.
6.
21. Habeas Corpus O486(1)
In determining whether there is a reasonable probability of a different result,
for purposes of ineffective assistance of
counsel, a court must consider the totality
of the available mitigation evidence—both
that adduced at trial, and the evidence
adduced in the habeas proceeding—and
reweigh it against the evidence in aggravation. U.S. Const. Amend. 6.
22. Criminal Law O1881
Surmounting Strickland’s high bar is
never an easy task. U.S. Const. Amend. 6.
23. Habeas Corpus O486(1), 773
The standards created by Strickland
and the Antiterrorism and Effective Death
Penalty Act (AEDPA) are both highly deferential, and when the two apply in tandem, review is doubly so. U.S. Const.
Amend. 6; 28 U.S.C.A. § 2254(d).
24. Habeas Corpus O486(1)
Whether defense counsel’s performance fell below Strickland’s standard is not
the question before a federal habeas court
reviewing a state court’s decision under

004a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

Antiterrorism and Effective Death Penalty
Act (AEDPA). 28 U.S.C.A. § 2254(d).
25. Habeas Corpus O486(1), 773
In reviewing an ineffective assistance
of counsel claim under the Antiterrorism
and Effective Death Penalty Act (AEDPA), a state court must be granted a deference and latitude that are not in operation when the case involves review under
the Strickland standard itself. U.S. Const.
Amend. 6; 28 U.S.C.A. § 2254(d).
26. Habeas Corpus O486(1)
Where Antiterrorism and Effective
Death Penalty Act (AEDPA) applies, the
question on a claim of ineffective assistance of counsel is not whether counsel’s
actions were reasonable; the question is
whether there is any reasonable argument
that counsel satisfied Strickland’s deferential standard. U.S. Const. Amend. 6; 28
U.S.C.A. § 2254(d).
27. Habeas Corpus O486(1)
Federal habeas courts must guard
against the danger of equating unreasonableness under Strickland with unreasonableness under the Antiterrorism and Effective Death Penalty Act (AEDPA). U.S.
Const. Amend. 6; 28 U.S.C.A. § 2254(d).
28. Criminal Law O1891, 1959
In context of ineffective assistance
claim, the reasonableness of a trial counsel’s acts, including lack of investigation or
excluding character witnesses from the
sentencing phase of a capital murder trial,
depends critically upon what information
the client communicated to counsel. U.S.
Const. Amend. 6.
29. Criminal Law O1882
No absolute rules dictate what is reasonable performance for lawyers under
Strickland standard for ineffective assistance claims. U.S. Const. Amend. 6.
30. Criminal Law O1960
Counsel’s failure to discover all reasonably available mitigating evidence in

1251

capital murder prosecution may constitute
deficient performance in some cases. U.S.
Const. Amend. 6.
31. Criminal Law O1960
In context of claim for ineffective assistance of counsel, court assesses a particular decision not to investigate mitigating
evidence in capital murder prosecution for
reasonableness in all the circumstances,
applying a heavy measure of deference to
counsel’s judgments. U.S. Const. Amend.
6.
32. Habeas Corpus O486(5)
State court’s rejection of petitioner’s
claim that his counsel was deficient, during
penalty phase of capital murder prosecution, in failing to investigate compelling
mitigating evidence about his childhood
abuse was not contrary to, or unreasonable
application of, clearly established federal
law as set forth in Strickland, as would
support grant of federal habeas relief on
ineffective assistance claim; record was silent as to thoughts and intentions of counsel, who was since deceased, as he prepared for penalty phase, and it could not
be said that counsel’s manifest strategy of
residual doubt was objectively unreasonable under circumstances. U.S. Const.
Amend. 6; 28 U.S.C.A. § 2254(d)(1); Ala.
Code § 13A-5-45(c).
33. Criminal Law O1880
The test for ineffectiveness is not
whether counsel could have done more.
U.S. Const. Amend. 6.
34. Criminal Law O1882
In reviewing ineffective assistance of
counsel claim, court does not ask whether
an attorney’s representation deviated from
best practices or common custom, and
court should resist the temptation to second-guess an attorney with the benefit of
its hindsight; court asks only whether, in
light of all the circumstances, the identified

005a
1252

963 FEDERAL REPORTER, 3d SERIES

acts or omissions were outside the range of
professionally competent assistance. U.S.
Const. Amend. 6.

been different, is a probability sufficient to
undermine confidence in the outcome.
U.S. Const. Amend. 6.

35. Habeas Corpus O486(1)
Federal habeas court’s inquiry on ineffective assistance of counsel claim is not
what the best lawyers would have done,
nor is the test even what most good lawyers would have done; court asks only
whether some reasonable lawyer at the
trial could have acted, in the circumstances, as defense counsel acted at trial.
U.S. Const. Amend. 6; 28 U.S.C.A. § 2254.

40. Habeas Corpus O486(5)

36. Habeas Corpus O486(1)
In reviewing ineffective assistance
claim, federal habeas court is not interested in grading lawyers’ performances. U.S.
Const. Amend. 6; 28 U.S.C.A. § 2254.
37. Criminal Law O1961
In context of deficiency prong of ineffective assistance claim, surely, counsel is
not required to call a witness during penalty phase of capital murder prosecution to
testify to facts such as lack of violent
nature when the jury has rejected such an
approach and has found that the defendant
is guilty of murder. U.S. Const. Amend. 6.
38. Habeas Corpus O486(5)
Given that jury recommended sentence of death by narrowest possible vote
of ten to two, federal habeas petitioner,
who alleged that he was prejudiced by his
penalty-phase counsel’s purported deficiency in failing to investigate compelling mitigating evidence about his childhood abuse,
was only required to establish reasonable
probability that at least one juror would
have struck different balance between life
and death. U.S. Const. Amend. 6; 28
U.S.C.A. § 2254; Ala. Code § 13A-5-45(c).
39. Criminal Law O1883
In context of prejudice prong of ineffective assistance claim, reasonable probability that, but for counsel’s unprofessional
errors, result of proceeding would have

State court’s rejection of petitioner’s
claim that his counsel’s alleged deficiency,
during penalty phase of capital murder
prosecution, in failing to investigate compelling mitigating evidence about his childhood abuse was prejudicial was not contrary to, or unreasonable application of,
clearly established federal law as set forth
in Strickland, nor was court’s rejection of
claim based on unreasonable determination
of facts, as would support grant of federal
habeas relief on ineffective assistance
claim; it was not likely that jury would
have concluded that death was not appropriate punishment if it had heard mitigating evidence about childhood abuse. U.S.
Const.
Amend.
6;
28
U.S.C.A.
§§ 2254(d)(1), 2254(d)(2); Ala. Code § 13A5-45(c).
41. Habeas Corpus O767
In the absence of clear and convincing
evidence, court has no power on federal
habeas review to revisit the state court’s
credibility determinations. 28 U.S.C.A.
§ 2254(d).
42. Criminal Law O1883
A federal habeas petitioner cannot
satisfy the prejudice prong of the Strickland test for ineffective assistance of counsel claims with evidence that is merely
cumulative of evidence already presented.
U.S. Const. Amend. 6; 28 U.S.C.A. § 2254.
43. Criminal Law O1883
More than mere conceivability is required to establish prejudice, as element of
ineffective assistance claim; the likelihood
of a different result must be substantial,
not just conceivable. U.S. Const. Amend.
6.

006a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

44. Sentencing and Punishment O1642
First component of intellectual disability that would render a defendant ineligible for the death penalty is significantly
subaverage intellectual functioning, or an
IQ of 70 or below.
45. Habeas Corpus O508
State court’s finding that petitioner
failed to establish intellectual functioning
aspect of intellectual disability, as would
render him ineligible for death penalty,
was not contrary to, or unreasonable application of, Atkins, nor was court’s finding
based on unreasonable determination of
facts, as would support grant of federal
habeas relief; court did not say it was
applying strict IQ cutoff of 70, as petitioner contended, but merely stated that
state’s expert had measured petitioner’s
IQ at 76, and no clinical assessment in
entire record of proceedings found that
petitioner had mental retardation or intellectual
disability.
28
U.S.C.A.
§§ 2254(d)(1), 2254(d)(2).
46. Sentencing and Punishment O1642
In context of Atkins claim that intellectual disability renders a defendant ineligible for death penalty, standard error of
measurement is a bi-directional concept
that does not carry with it a presumption
that an individual’s IQ falls to the bottom
of his IQ range.
47. Sentencing and Punishment O1642
In context of Atkins claim that intellectual disability renders a defendant ineligible for death penalty, ‘‘Flynn effect’’ acknowledges that as an intelligence test
ages, or moves farther from the date on
which it was standardized, or normed, the
mean score of the population as a whole on
that assessment instrument increases,
thereby artificially inflating the IQ scores
of individual test subjects; therefore, the
IQ test scores must be recalibrated to

1253

keep all test subjects on a level playing
field.
See publication Words and Phrases
for other judicial constructions and
definitions.

48. Habeas Corpus O380.1
State courts did not have full and fair
opportunity to consider Flynn effect in
determining intellectual disability of petitioner, who was sentenced to death for
murder, since issue was not specifically
presented to courts, and thus, under Antiterrorism and Effective Death Penalty Act
(AEDPA), petitioner was procedurally
barred from raising issue in his federal
habeas
petition.
28
U.S.C.A.
§§ 2254(b)(1)(A), 2254(c).
49. Habeas Corpus O404
Under Antiterrorism and Effective
Death Penalty Act (AEDPA), federal habeas court will allow a prisoner to overcome a procedural bar if he establishes
cause for his default and prejudice therefrom.
28 U.S.C.A. §§ 2254(b)(1)(A),
2254(c).
50. Habeas Corpus O409
Federal habeas petitioner could not
establish prejudice from being barred from
asserting claim based on Flynn effect in
determining his intellectual disability, and
thus his eligibility for death sentence, as
would excuse procedural bar under Antiterrorism and Effective Death Penalty Act
(AEDPA), since Supreme Court had not
clearly established that a court was required to consider Flynn effect in assessing intellectual disability. 28 U.S.C.A.
§§ 2254(b)(1)(A), 2254(c), 2254(d)(1).
51. Sentencing and Punishment O1642
Second of three components of intellectual disability, for purposes of determining whether a defendant is eligible for
death penalty under Atkins, is significant
or substantial deficits in adaptive behavior.

007a
1254

963 FEDERAL REPORTER, 3d SERIES

52. Habeas Corpus O508
State court’s finding that petitioner
failed to establish adaptive-skill component
of intellectual disability, as would render
him ineligible for death penalty, was not
contrary to, or unreasonable application of,
Atkins, nor was court’s finding based on
unreasonable determination of facts, as
would support grant of federal habeas relief; facts of crime failed to show significant deficits in areas of work, communication, community use, and self-direction, as
petitioner was able to communicate well
enough to solicit alibi and sell car, and
then arrange for flight from state, including purchasing bus ticket and hitchhiking
across country, and people who knew petitioner as adult consistently described man
who did not have serious difficulties in
communicating and forming relationships.
28 U.S.C.A. §§ 2254(d)(1), 2254(d)(2).
53. Sentencing and Punishment O1642
Third and final component of intellectual disability, for purposes of determining
whether a defendant is eligible for death
penalty under Atkins, is manifestation of
the first and second components, namely,
intellectual function and adaptive function,
before the defendant reached age 18.
54. Sentencing and Punishment O1642
Defendant failed to establish age-ofonset component of intellectual disability,
as would render him ineligible for death
penalty under Atkins; ample record of defendant’s childhood did not point to intellectual disability before age 18, and IQ
tests ordered by juvenile court at age 14,
which gave scores of 81 and 86 on different
tests, in the dull-normal range and reflecting learning disability, showed child with
serious academic deficits and some intellectual and adaptive deficits, but they did
1. We note that appellant has a pending petition for rehearing en banc along with a supporting amicus brief. We will still consider
appellant’s petition in light of this substituted
opinion, and therefore he need not refile.

not clearly show intellectually disabled
child.
55. Habeas Corpus O742
Only if the state habeas petitioner
clears Antiterrorism and Effective Death
Penalty Act’s (AEDPA) initial hurdles may
an evidentiary hearing be granted provided that an evidentiary hearing is not otherwise barred by the limitations set forth in
AEDPA.
28 U.S.C.A. §§ 2254(d),
2254(e)(2).
Appeal from the United States District
Court for the Northern District of Alabama, D.C. Docket No. 4:08-cv-00869-VEH
Joseph T. Flood, Sheldon, Flood and
Haywood, PLC, Fairfax, VA, for Petitioner-Appellant
Henry M. Johnson, James Clayton
Crenshaw, Michael A. Nunnelley, Alabama
Attorney General’s Office, Montgomery,
AL, for Respondent-Appellee
Brendan B. Gants, Elaine Goldenberg,
Munger Tolles & Olson, LLP, Washington,
DC, for Amici Curiae Alabama Disabilities
Advocacy Program, Arc of Alabama, Arc
of the United States
Before WILSON, BRANCH, and
TJOFLAT, Circuit Judges.
BRANCH, Circuit Judge:
We sua sponte vacate our previous opinion and substitute the following in lieu
thereof.1
* * *
Mark Allen Jenkins, an Alabama prisoner sentenced to death for the 1989 murder
of Tammy Ruth Hogeland, appeals the
However, appellant may file a ten-page supplemental petition based on the new opinion
if desired within the standard time frame for
filing rehearing petitions.

008a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

district court’s denial of his petition for a
writ of habeas corpus, 28 U.S.C. § 2254.
Before us are Jenkins’s arguments that he
received ineffective assistance of counsel
during the penalty phase of his trial and
that he is intellectually disabled and therefore ineligible for the death penalty. After
careful consideration, and with the benefit
of oral argument, we affirm the denial of
Jenkins’s habeas petition on both grounds.
I.
A.

BACKGROUND

The Crime and Arrest

We summarize the following background
narrative from opinions of the Alabama
Court of Criminal Appeals and our own
review of the record. See Jenkins v. State,
627 So. 2d 1034, 1037–40 (Ala. Ct. Crim.
App. 1992); Jenkins v. State, 972 So. 2d
111, 119–20 (Ala. Ct. Crim. App. 2004). The
events leading up to the murder began the
evening of April 17, 1989. Jenkins was at
the home of his acquaintance Christine
Nicholas. He had met her several months
earlier at the Omelet Shoppe restaurant
where she worked. Jenkins was very intoxicated and tried to seduce her. When she
resisted, Jenkins got ‘‘real mad’’ and asked
her several times what she would do if
someone came up from behind her and
grabbed her.
At around 1 a.m., Jenkins and Nicholas
drove to the Riverchase Omelet Shoppe.
Jenkins went inside and talked with one of
the waitresses, Frieda Vines. The manager, Douglas Thrash, recognized Jenkins as
a regular customer who knew all of the
waitresses. Thrash overheard part of Jenkins’s conversation with Vines and heard
mention of the Omelet Shoppe location
near the Birmingham Airport. Jenkins and
Nicholas then returned to Nicholas’s home.
Around 2 a.m., Nicholas’s mother asked
Jenkins to leave. He did so, falling down
some steps and ramming his car into another vehicle in the process.

1255

Meanwhile, 23-year-old Tammy Hogeland was making her way to work at the
Omelet Shoppe. Her sister Wendy, along
with Tammy’s young son, picked Tammy
up from her college classes and drove her
to the Riverchase Omelet Shoppe a little
after 9:30 p.m. Sometime after 10:00, Tammy was sent to work at the airport Omelet
Shoppe on Tenth Avenue, since that location was unexpectedly shorthanded. Tammy was wearing her watch, a necklace
with the words ‘‘special sister,’’ her class
ring, and her diamond engagement ring.
Tammy was working as a cook that night
and was wearing a blue apron, black pants,
a white shirt, and white shoes. She and
Sarah Harris were the only employees
working at the airport Omelet Shoppe that
night.
At about 2 a.m. on April 18, Harris saw
Jenkins—whom she did not know—drive
up in a red sports car. His arrival was
memorable to Harris because the car nearly jumped the curb and crashed through
the restaurant’s glass wall. Jenkins got out
of the car and came into the restaurant,
appearing to be intoxicated. He walked
over to Hogeland and began talking to her.
Harris later saw Jenkins and Hogeland
drive away together in the red sports car.
That was the last time anyone who knew
Hogeland ever saw her. Hogeland left behind her cigarettes, lighter, purse, and
paycheck. She left without telling anyone,
which she had never done before. Although
Harris saw them drive off, she could not
later say whether Hogeland left with Jenkins willingly or was instead abducted.
At around 5 a.m. that morning, Bobby
and Geraldine Coe had stopped to buy gas
at a Chevron station on I-59 northeast of
Birmingham when they saw Jenkins drive
up in the red sports car. The Coes noticed
a female who appeared to be ‘‘passed out’’
in the front passenger seat, but they could
not say whether she was alive or dead.

009a
1256

963 FEDERAL REPORTER, 3d SERIES

While Bobby Coe was pumping gas, Jenkins asked him for some cigarettes and
said, ‘‘Looks like it’s been a long night and
it looks like it’s going to be a long day.’’
Jenkins then said ‘‘God bless you’’ before
asking directions to I-459. Coe gave him
directions and got back in his car. As Coe
pulled out onto the interstate, he saw Jenkins follow him in the red sports car. Coe
then saw the car flash its lights, slow
down, and pull to the side of the road
between mile markers 151 and 152.
At 8 a.m., Wendy Hogeland learned that
Tammy was not at the restaurant, and
their mother called the police. Meanwhile,
Jenkins went to the home of Steve Musser,
who noticed that he was wearing the same
clothes as the day before. Jenkins told
Musser that his car had been stolen the
night before and asked him if he would say
that he had been with him all night. Musser refused. Christine Nicholas also saw
Jenkins in a grocery store that morning.
He was looking at a newspaper, making a
phone call, and attempting to sell his
Buick. Nicholas loaned him $4 for gas. At
around 10 o’clock that morning, Jenkins
sold his car to Michael Brooks, a mechanic
at a local Chevron station. Jenkins had
explained that he needed the money so he
could visit his sick mother in California.
Another mechanic at the service station
drove Jenkins to the Greyhound bus station later that morning.
Jenkins awoke the next day on the
Greyhound bus in Houston and was ejected from the bus because his fare was used
up. He then hitchhiked from Houston to
Phoenix, then to San Diego and Los Angeles. Jenkins was first identified as a suspect in Hogeland’s disappearance by Officer Mike Weems of the Hoover Police
Department on April 19. Weems ate dinner at the Riverchase Omelet Shoppe just
about every day and had talked with
2.

The jury was not permitted to hear, and the
record does not reveal, what exactly Jenkins

Hogeland just as often. He also knew Jenkins from the restaurant. Weems learned
of Hogeland’s disappearance from the other waitresses. Remembering how Jenkins
often talked to Hogeland and passed her
notes,2 he gave Jenkins’s name to the missing persons investigator. The investigator
also learned that a red Mazda RX-7 sports
car, which had been reported stolen from
the service station where Jenkins worked,
had been recovered on I-459.
The afternoon of April 21, a truck driver
who had happened to stop on I-59 near
mile marker 151 discovered Hogeland’s
body off the side of the road. She was
naked, wearing only a watch, and was so
badly decomposed that the body had to be
identified by dental records. From the
fractured hyoid bone, it was determined
that she was manually strangled to death.
Also found at the scene were Hogeland’s
apron, shoes, bra, panties, pants, and hair
net, as well as some beer cans, a Mazda
RX-7 owner’s manual, and other items later determined to have come from the red
Mazda. Her necklace and rings were never
found.
Alabama authorities issued a warrant
for Jenkins’s arrest and also obtained a
federal fugitive warrant. An FBI agent
arrested Jenkins on May 1 in front of his
uncle’s house in Wilmington, California.
Jenkins’s uncle later gave the police three
bags of Jenkins’s personal effects. Fibers
recovered from Hogeland’s body and clothing matched those of the Mazda, and hairs
matching Hogeland’s were found in the
Mazda. Similarly, fibers from Jenkins’s
clothing placed him in the Mazda, and
fibers of his jeans were found on Hogeland’s apron. A bootprint near Hogeland’s
body matched a combat boot from among
the belongings Jenkins’s uncle gave to the
police, and Jenkins’s roommate said the
had said to Hogeland that made Officer
Weems suspect him in her disappearance.

010a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

boots looked just like those that Jenkins
wore.
A business card like those that had been
in the Mazda’s glove box, belonging to an
owner of the Mazda, was recovered from
Jenkins’s wallet after his arrest in California. Later, Jenkins’s cellmate in the Alabama jail reported that Jenkins told him
‘‘he had done the crime’’ and was worried
that the couple from the gas station would
identify him or that the police would find
his fingerprint on a beer can at the scene.
A St. Clair County grand jury indicted
Jenkins for capital murder.
B.

The Trial and Sentencing

Jenkins was represented at trial in 1991
by attorneys Douglas Scofield and Stan
Downey. Scofield, the lead attorney, had
been practicing criminal defense in Birmingham since 1984 but had never before
tried a capital murder case. Jenkins’s landlord and his grandmother had arranged
the referral and representation before the
court appointed him. Scofield agreed to the
appointment on the condition that a St.
Clair County lawyer also be appointed.
That lawyer was Downey, who had more
experience than Scofield but whose capital
experience was limited to one case that
had not gone to trial. The two attorneys
had agreed that Downey would be responsible for jury selection, but Scofield eventually took over during the voir dire. Per
their agreement, Scofield was responsible
for the guilt-phase trial, although Downey
participated by interviewing Jenkins several times. Scofield also met with Jenkins
around a dozen times. Jenkins had told
him about his background and childhood,
including the fact that he had had a difficult childhood and had lived on the streets
since age 11.
Throughout the weeklong trial, Scofield
pursued an outright acquittal. In particular, he challenged Harris’s identification of
Jenkins as the man who drove away with

1257

Hogeland, and he challenged the medical
examiner’s opinions about the time and
cause of Hogeland’s death. In his closing
argument, Scofield took a wide-ranging approach to undermining the State’s wholly
circumstantial case against Jenkins. He attacked the State’s timeline of the crime,
questioning whether Jenkins in his intoxicated state would have had the time and
the ability to leave Nicholas’s house, steal
the Mazda, and abduct and kill Hogeland.
He reminded the jury of the weakness of
Harris’s identification of Jenkins and the
Coes’ identification of the woman in the
car. He pointed out that no physical evidence definitively linked Jenkins to the
Mazda, to Hogeland’s body, or to her jewelry, which was never recovered. And he
argued that the evidence provided no plausible motive for Jenkins to have kidnapped, robbed, or killed Hogeland. In
sum, he urged the jury to find reasonable
doubt and acquit Jenkins. At the very
least, he argued, they should find that the
State failed to prove Jenkins’s intent to
rob and kidnap Hogeland, which were necessary to convict Jenkins of capital murder. He further argued that, if the jury
thought Jenkins killed Hogeland as a
crime of passion, they could convict him
only of manslaughter. The jury deliberated
for three hours and fifteen minutes before
convicting Jenkins of capital murder, Ala.
Code § 13A-5-40(a)(1) & (2), i.e., murder
committed in the course of kidnapping and
robbery.
The penalty phase took place that same
afternoon. A week before trial, Scofield
and Downey had discussed the penalty
phase, and Scofield understood that Downey would be responsible for handling the
penalty phase. Nonetheless, the witness
who was present to testify on Jenkins’s
behalf during the penalty phase was better
acquainted with Scofield, so Downey suggested that afternoon that Scofield conduct
the direct examination. Scofield urged
Downey to interview the witness quickly

011a
1258

963 FEDERAL REPORTER, 3d SERIES

and prepare to examine him, and Downey
did so.

poses of capital punishment would not be
served in this case.

Downey handled the penalty presentation to the jury. The State did not present
any additional aggravation evidence, resting on the evidence presented during the
guilt phase. One witness, Lonnie Seal, testified on Jenkins’s behalf in order, in Downey’s words, to ‘‘reveal another side of
Mark Jenkins to you that you don’t know
anything about.’’ Seal had met Jenkins in
Fontana, California, in 1988 when they
both worked at the same garage. Seal and
his wife became friends with Jenkins, and
he visited in their home. When the Seals
decided to move to Alabama a few months
later, Jenkins agreed to help with their
move and to live with the Seals in Alabama
for a time. It took Lonnie Seal several
weeks to find a job, but Jenkins found a
job in two days and contributed toward the
family’s rent and groceries. Jenkins continued to visit the Seals after he moved into
his own home, and he would always bring
a small gift for and play with the Seals’
infant son.

The jury deliberated for 50 minutes before returning its nonbinding recommendation of death by a vote of 10 to 2. See Ala.
Code § 13A-5-46(e) (1981) (amended 2017
to make jury’s verdict binding). After a
separate hearing, the court found the two
statutory aggravating factors for which the
State had argued: that the murder was
committed during the commission of a robbery, and that it was committed during the
commission of a kidnapping. See Ala. Code
§ 13A-5-49(4). The court also found two
statutory mitigating factors: that Jenkins
had no significant history of prior criminal
activity, and his age at the time of the
crime (21). See id. § 13A-5-51(1), (7). The
court considered but rejected the statutory
mitigation that, due to his consumption of
alcohol, Jenkins’s capacity to appreciate
the criminality of his conduct or to conform his conduct to the requirements of
law was substantially impaired. See id.
§ 13A-5-51(6). The court found that the
aggravating circumstances outweighed the
mitigating circumstances and, in accordance with the jury’s recommendation, imposed a sentence of death.

Downey’s closing argument to the jury
requested a sentence of life without parole.
Downey reminded the jurors that they had
agreed during voir dire that death was not
always the appropriate punishment for
homicide. Quoting the Bible,3 he reminded
the jury that the Old Testament permitted
capital punishment only when supported
by the testimony of two or three eyewitnesses, whereas in this case there had
been only circumstantial evidence. He asserted from Seal’s testimony that ‘‘Mark
had a side of him that was generous, that
was giving, and that was kind,’’ and argued
that the deterrent and retributive pur3.

‘‘If anyone kills a person, the murderer shall
be put to death on the evidence of witnesses.
But no person shall be put to death on the
testimony of one witness.’’ Numbers 35:30
(ESV). Downey also paraphrased Deuteronomy 17:6 as ‘‘On the evidence of two witnesses
or three witnesses, he is [sic] shall be put to

C.

The State and Federal PostConviction Proceedings

On direct appeal, the Alabama Court of
Criminal Appeals affirmed Jenkins’s conviction and death sentence. Jenkins v.
State, 627 So. 2d 1034 (Ala. Ct. Crim. App.
1992), aff’d, 627 So. 2d 1054 (Ala. 1993),
cert. denied, 511 U.S. 1012, 114 S.Ct. 1388,
128 L.Ed.2d 63 (1994). In 1995, Jenkins
filed his first petition for state postconviction relief, Ala. R. Crim. P. 32,4 alleging,
death. He shall not be put to death on the
evidence of one witness.’’
4. ‘‘Subject to the limitations of Rule 32.2, any
defendant who has been convicted of a criminal offense may institute a proceeding in the
court of original conviction to secure appro-

012a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

among many other things, that he received
ineffective assistance of counsel during his
penalty phase. The Rule 32 trial court
conducted a three-day hearing at which
evidence was presented about the performance of Jenkins’s attorneys.
Scofield testified about the representation that he and Downey provided. In relevant part, Scofield asserted that he and
Downey had ‘‘decided that [developing mitigation for the penalty phase] would be
something that Stan [Downey] would handle.’’ Downey later told Scofield that he
hadn’t done any such investigation, but
Scofield admitted that, ‘‘[a]part from what
he has told me, I don’t know what he has
done.’’ Scofield testified that Downey
‘‘didn’t appear prepared’’ for the penalty
phase, based on Downey’s last-minute suggestion that Scofield examine Seal since he
had talked with him before.
In preparation for the penalty phase,
Scofield himself did not interview any
member of Jenkins’s family, but he did not
know whether Downey interviewed any
family members. Scofield did interview
Jenkins’s landlord and some other acquaintances but did not do so specifically for the
purpose of developing mitigation. He had
met with Jenkins around a dozen times,
and Jenkins had told him his life story
including his experience of abuse as a
child. In hindsight, Scofield said he had a
‘‘lack of appreciation of mitigating circumstances.’’ He repeatedly denied in his Rule
32 testimony that his omissions during the
priate relief on the ground that TTT [t]he constitution of the United States or of the State of
Alabama requires a new trial, a new sentence
proceeding, or other reliefTTTT’’ Ala. R. Crim.
P. 32.1.
5.

In Jenkins’s state postconviction appeal, the
Alabama Court of Criminal Appeals erroneously stated that Downey’s fee declaration
reports 171 hours of pretrial preparation. See
Jenkins, 972 So. 2d at 137. We discuss the
effect of this discrepancy infra note 7.

1259

penalty phase were strategic: ‘‘I didn’t understand what I was doingTTTT I just
didn’t understand what I needed to do.’’
For reasons that remain unclear, Downey—who is since deceased—did not testify or submit an affidavit in the Rule 32
proceeding. Scofield answered, ‘‘Obviously
not,’’ when asked whether he had personal
knowledge of everything Downey may or
may not have done to prepare for the
penalty phase. The record of the extent of
Downey’s pretrial preparation is thus limited to Downey’s detailed fee declaration,
which he submitted to the State of Alabama in documentation of the compensation due him as appointed counsel. See Ala.
Code § 15-12-21. In it, Downey reported
that he spent 71 hours 5 on out-of-court
preparation for trial. The report details 35
hours of interviews with Jenkins in 18
separate visits to the jail over the course of
17 months, as well as one substantive conversation with Jenkins’s grandmother.6
The Rule 32 trial court also heard testimony from four family members and one
friend of Jenkins’s. The family members
presented for the first time a stark depiction of Jenkins as an unloved and
abused child in California. Jenkins’s older
brother Michael Jenkins testified that all
of his siblings have different fathers and
that his parents often used drugs and
fought. Michael testified that Jenkins was
beaten frequently as a child by his stepfather, if not every day then every other day
or every three days. Jenkins was beaten
6.

The state appellate court also noted that
Downey had moved for a continuance in October 1989 so that he could conduct ‘‘[f]urther
discovery and investigation (including a possible trip to California).’’ Id. We note that Scofield had orally suggested to the trial court in
September 1989 that more time might be
needed with respect to ‘‘evidence about the
defendant’’ and witnesses in California, as
well as possible psychological evaluation.

013a
1260

963 FEDERAL REPORTER, 3d SERIES

all over his body with a variety of implements. Michael was beaten too. Jenkins’s
stepfather would lock Jenkins in his bedroom for a couple of hours at a time,
sometimes without dinner. Some of the
beatings were prompted by Jenkins’s bedwetting or soiling. Michael testified that
Jenkins’s stepfather sometimes made Jenkins wear his soiled underwear on his head
and even forced him to eat his own feces a
few times. Michael testified that Jenkins’s
bladder and bowel control problems began
after a camping trip he took with his stepfather and stepgrandfather.
Michael testified that, as children, he
and Jenkins were made to work on car
engines late into the night and to shovel
horse manure daily. The family moved frequently and the children attended many
different schools as a result. Michael testified that he was Jenkins’s only friend as a
child and that Jenkins did poorly in school.
Jenkins began running away from home as
a young teenager and lived with various
other family members or on the streets.
Michael said that Jenkins was a good
brother to him and had asked him to testify at his trial, but he never heard from his
attorneys or found out when the trial was.
Michael admitted to having cognitive and
memory problems due to a head injury
years earlier.
Jenkins’s cousin Tammy Pitts testified
that, as an infant, Jenkins’s mother beat
and neglected him, leaving him dirty and
in soiled diapers. His stepfather also beat
Jenkins daily until he left home at age 13,
sometimes bruising him so badly that he
was laid up in bed for days or weeks.
Jenkins had problems with bedwetting and
soiling, and his stepfather made him wear
soiled clothes to school. Jenkins would be
locked in his filthy bedroom around the
clock except to attend school and do
chores. He was usually not allowed to eat
dinner with the rest of the family and
subsisted on scraps and dog food. The

entire family belittled Jenkins because his
biological father was Hispanic and his complexion was therefore darker. Jenkins’s
parents drank a lot and used drugs every
day. Pitts knew these things because she
had daily contact with the family and lived
with them off and on, and Jenkins lived
with her for a time after he ran away from
home. No one had contacted her about
testifying at Jenkins’s trial.
Jenkins’s second cousin Betty DeLavega
testified that her relationship with Jenkins
was like that of an aunt. She lived with the
Jenkins family for five months when Jenkins was 10 or 11. She saw Jenkins’s stepfather slap Jenkins ‘‘[q]uite a few times,’’
and once, he made Jenkins eat his own
feces. DeLavega testified that Jenkins’s
parents used drugs nearly every day and
withheld affection from Jenkins and Michael. No one contacted her about Jenkins’s trial; Jenkins’s grandmother had
asked her to testify in the Rule 32 hearing
about any abuse she had witnessed.
Jenkins’s grandmother Doris Wagoner
testified that while Jenkins’s mother was
pregnant with him, her husband was in
prison and she drank and took drugs.
When Jenkins was born, his mother initially put him up for adoption, then changed
her mind weeks later. Jenkins was a lethargic infant and his mother cared more
about partying than about her children.
Wagoner testified that she heard of Jenkins’s mistreatment as a child but didn’t
see it. She could tell from the way that
Jenkins feared his stepfather that he was
being abused, and she knew he slept in a
filthy bed. After Jenkins was arrested for
murder, Wagoner spoke with Scofield, who
asked for money relating to his representation of Jenkins. She did not remember
whether she talked with Scofield about
Jenkins’s background. She could not remember why she didn’t testify at the trial;

014a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

she might have been ill, but she was probably busy.
Sherry Seal, the wife of Lonnie Seal,
who had testified in the penalty phase of
the trial, testified that Jenkins was respectful and generous and that she trusted
him with her children. She related how he
supported her family after moving to Alabama, giving them ‘‘pretty much’’ his entire paycheck. She said she would still feel
safe around Jenkins. Two jailers also testified that Jenkins was a respectful, courteous, model inmate who never complained
or caused any problems.
Jenkins also introduced medical, school,
and juvenile court records from his childhood. The medical records document his
premature birth and his mother’s intention
to give him up for adoption. The school
records reflect a struggling student who
was repeatedly promoted to the next grade
because of his age, despite serious academic difficulties, chronic truancy, and frequent school changes. The juvenile court
records document Jenkins’s placement in
juvenile hall starting at age 14, following
repeated acts of grand theft auto and running away.
The Rule 32 hearing concluded with the
testimony of two psychologists about Jenkins’s history of psychological trauma
stemming from his childhood abuse. The
defense expert, Dr. David Lisak, had met
with Jenkins three times and interviewed a
dozen of his family members, family
friends, and associates. Dr. Lisak testified
that the pervasive abuse and neglect in
Jenkins’s childhood impaired his ability to
cope with trauma as an adult. He opined
that Jenkins’s childhood abuse adversely
affected his cognitive and emotional development and other abilities. He described
how Jenkins had been neglected as an
infant and sexually abused by his grandfather at age four, which led to a lifetime of
bladder and bowel dysfunction. He also
discussed the hypothesis that children who

1261

are abused are at greater risk for perpetrating violence later in life, but he acknowledged there would have been other
causative factors in Jenkins’s case. Dr. Lisak described Jenkins’s intellectual capacity as ‘‘somewhat borderline,’’ though he
did not perform any testing of his own.
The State’s expert, Dr. Karl Kirkland,
had met with Jenkins for several hours
and administered several tests. On the
Wechsler Adult Intelligence Scale, Jenkins
‘‘scored in the range of borderline intellectual functioning which is between mild
mental retardation and low average intellectual functioning’’ with an overall IQ of
76. Dr. Kirkland agreed that Jenkins had
been ‘‘reared in a chaotic dysfunctional
family’’ and generally agreed with Dr. Lisak’s assessment of the negative effects of
childhood trauma.
The court considered all of this evidence
before denying Rule 32 relief in full. As
relevant here, it found that some of the
evidence about the severity of abuse that
Jenkins suffered as a child was not credible. It further found that Jenkins suffered
no prejudice from any deficient performance by his penalty-phase counsel because
the aggravating circumstances outweighed
any additional mitigating evidence Downey
might have adduced.
The Alabama Court of Criminal Appeals
affirmed the denial of Rule 32 relief. Jenkins v. State, 972 So. 2d 111 (Ala. Ct.
Crim. App. 2004). In relevant part, the
appeals court rejected Jenkins’s ineffective
assistance claim, finding that counsel reasonably chose to pursue a penalty-phase
strategy of residual doubt and good character. Id. at 147. It explained that the new
evidence was self-contradictory in that it
asserted that childhood abuse would have
made Jenkins a violent adult yet also asserted that Jenkins was meek and mild. Id.
The appeals court also agreed with the
lower court’s conclusion that Jenkins suf-

015a
1262

963 FEDERAL REPORTER, 3d SERIES

fered no prejudice from any error by his
counsel because the aggravating circumstances still outweighed any new mitigating ones. Id. at 148. The court also noted
that evidence about Jenkins’s good behavior in jail awaiting trial was ‘‘minimally
mitigating’’ and would not have affected
the sentence. Id. at 149.
Because the Supreme Court’s decision in
Atkins v. Virginia 7 had issued during the
pendency of the Rule 32 appeal, the Alabama appeals court ordered supplemental
briefing on the possible impact of Atkins
upon Jenkins’s sentence. Jenkins asked
the court to stay the proceedings and conduct an evidentiary hearing after the Alabama legislature enacted a statute about
executing the mentally retarded or, in the
alternative, to vacate his sentence and remand after the Alabama legislature acted.
He later asserted that he is mentally retarded and therefore ineligible for the
death penalty. The appeals court proceeded to reject Jenkins’s Atkins claim on the
merits because the record established that
his IQ was 76 and that he maintained
relationships and employment. Id. at 155.
The Alabama Supreme Court summarily
affirmed, in relevant part. Ex parte Jenkins, 972 So. 2d 159, 165 (Ala. 2005), remanded to972 So. 2d 165 (Ala. Ct. Crim.
App. 2005) (juror misconduct claim), cert.
denied, 552 U.S. 1167, 128 S.Ct. 1122, 169
L.Ed.2d 951 (2008).
In 2008, Jenkins filed his first petition
for a writ of habeas corpus in federal court
pursuant to 28 U.S.C. § 2254. The federal
proceedings were stayed for several years
while Jenkins pursued additional, unrelated Rule 32 relief in the state courts, ultimately unsuccessfully. In the district
court, Jenkins moved for an evidentiary
hearing on his Atkins claim. After review7.

536 U.S. 304, 321, 122 S.Ct. 2242, 153
L.Ed.2d 335 (2002) (holding that the execution of mentally retarded offenders violates
the Eighth Amendment). The rule announced

ing the state court record, with a focus on
the Rule 32 testimony of Drs. Lisak and
Kirkland, the district court denied the motion in 2015. Noting that our Circuit has
accepted the State of Alabama’s definition
of mental retardation following Atkins, the
court found that Jenkins is not intellectually disabled under that standard. In a 347page order, the district court also denied
relief on all of Jenkins’s claims including
ineffective assistance of counsel during the
penalty phase and affirmed as reasonable
the state court’s conclusion that Jenkins
failed to establish prejudice from any error
by his counsel. The district court later
denied reconsideration and a certificate of
appealability.
Jenkins now appeals. Our Court granted
Jenkins a certificate of appealability, 28
U.S.C. § 2253(c), on two issues:
1) Whether the district court erred in
denying Appellant’s claim that his trial
counsel rendered ineffective assistance
of counsel in the investigation and presentation of mitigating evidence during
the penalty phase of Appellant’s 1991
trial; and
2) Whether the district court erred in
denying Appellant’s claim that he is intellectually disabled and ineligible for
the death penalty under Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242, 153
L.Ed.2d 335 (2002).
II.

STANDARDS OF REVIEW

[1, 2] We review the denial of a § 2254
petition for a writ of habeas corpus de
novo. Morrow v. Warden, Ga. Diagnostic
Prison, 886 F.3d 1138, 1146 (11th Cir.
2018). Yet, the Antiterrorism and Effective
Death Penalty Act of 1996 (AEDPA) also
governs this appeal, which establishes a
in Atkins is retroactive to cases on collateral
review. In re Holladay, 331 F.3d 1169, 1172–
73 (11th Cir. 2003).

016a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

‘‘highly deferential standard for evaluating
state-court rulings, [and] demands that
state-court decisions be given the benefit
of the doubt.’’ Cullen v. Pinholster, 563
U.S. 170, 181, 131 S.Ct. 1388, 179 L.Ed.2d
557 (2011) (quoting Woodford v. Visciotti,
537 U.S. 19, 24, 123 S.Ct. 357, 154 L.Ed.2d
279 (2002) (per curiam)). Thus, under
AEDPA, our review of a final state habeas
decision is greatly circumscribed, and we
cannot grant a state petitioner habeas relief on any claim that was adjudicated on
the merits in state court unless the state
court’s adjudication of the claim:
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based
on an unreasonable determination of the
facts in light of the evidence presented
in the State court proceeding.
28 U.S.C. § 2254(d)(1)–(2).
[3–8] ‘‘[C]learly established Federal
law’’ means ‘‘the holdings, as opposed to
the dicta, of [the Supreme] Court’s decisions as of the time of the relevant statecourt decision.’’ Williams v. Taylor, 529
U.S. 362, 412, 120 S.Ct. 1495, 146 L.Ed.2d
389 (2000). ‘‘[W]hen the last state court to
decide a prisoner’s federal claim explains
its decision on the merits in a reasoned
opinion TTT a federal habeas court simply
reviews the specific reasons given by the
state court and defers to those reasons if
they are reasonable.’’ Wilson v. Sellers,
––– U.S. ––––, 138 S. Ct. 1188, 1192, 200
L.Ed.2d 530 (2018). For a state-court decision to be ‘‘contrary to’’ clearly established
federal law, the state court must have
‘‘applie[d] a rule different from the governing law set forth in [Supreme Court] cases,
or if it decides a case differently than [the
Supreme Court] ha[s] done on a set of
materially indistinguishable facts.’’ Bell v.
Cone, 535 U.S. 685, 694, 122 S.Ct. 1843,

1263

152 L.Ed.2d 914 (2002). An ‘‘unreasonable
application’’ of federal law occurs ‘‘if the
state court correctly identifies the governing legal principle from [the Supreme
Court’s] decisions but unreasonably applies it to the facts of the particular case.’’
Id. To be clear, ‘‘an unreasonable application of federal law is different from an
incorrect application of federal law.’’
Williams, 529 U.S. at 410, 120 S.Ct. 1495.
‘‘Indeed, ‘a federal habeas court may not
issue the writ simply because that court
concludes in its independent judgment that
the relevant state-court decision applied
clearly established federal law erroneously
or incorrectly.’ ’’ Renico v. Lett, 559 U.S.
766, 773, 130 S.Ct. 1855, 176 L.Ed.2d 678
(2010) (quoting Williams, 529 U.S. at 411,
120 S.Ct. 1495 ). Rather, the state court’s
application of federal law ‘‘must be ‘objectively unreasonable.’ This distinction creates ‘a substantially higher threshold’ for
obtaining relief than de novo review.’’ Id.
(quotations omitted); White v. Woodall,
572 U.S. 415, 419, 134 S.Ct. 1697, 188
L.Ed.2d 698 (2014) (explaining that, for
purposes of § 2254(d)(1), the State’s court’s
application of clearly established federal
law must be ‘‘ ‘objectively unreasonable,’
not merely wrong; even ‘clear error’ will
not suffice’’ (quoting Lockyer v. Andrade,
538 U.S. 63, 75, 123 S.Ct. 1166, 155
L.Ed.2d 144 (2003))).
[9–11] A state court’s decision is reasonable ‘‘so long as ‘fairminded jurists
could disagree’ on the correctness of the
state court’s decision.’’ Harrington v.
Richter, 562 U.S. 86, 101, 131 S.Ct. 770,
178 L.Ed.2d 624 (2011) (quoting Yarborough v. Alvarado, 541 U.S. 652, 664, 124
S.Ct. 2140, 158 L.Ed.2d 938 (2004)).
‘‘[E]ven a strong case for relief does not
mean the state court’s contrary conclusion
was unreasonable.’’ Id. at 102, 131 S.Ct.
770. Rather, a prisoner must show that the
state court’s ruling ‘‘was so lacking in jus-

017a
1264

963 FEDERAL REPORTER, 3d SERIES

tification that there was an error well understood and comprehended in existing
law beyond any possibility for fairminded
disagreement.’’ Id. at 103, 131 S.Ct. 770.
[12–14] In addition, ‘‘a determination
of a factual issue made by a State court
shall be presumed to be correct,’’ and the
prisoner bears ‘‘the burden of rebutting
the presumption of correctness by clear
and convincing evidence.’’ 28 U.S.C.
§ 2254(e)(1). ‘‘This deference requires that
a federal habeas court more than simply
disagree with the state court before rejecting its factual determinations. Instead, it
must conclude that the state court’s findings lack even fair support in the record.’’
Smith v. Comm’r, Ala. Dep’t of Corr., 924
F.3d 1330, 1337 (quoting Rose v. McNeil,
634 F.3d 1224, 1241 (11th Cir. 2011)).
When a federal habeas court makes a factual finding as part of its habeas determination, we review for clear error, which is
a ‘‘highly deferential’’ standard of review.
Thomas v. Allen, 607 F.3d 749, 752 (11th
Cir. 2010) (quoting Holton v. City of
Thomasville Sch. Dist., 425 F.3d 1325,
1350 (11th Cir. 2005)). ‘‘A finding is ‘clearly
erroneous’ when although there is evidence
to support it, the reviewing court on the
entire evidence is left with the definite and
firm conviction that a mistake has been
committed.’’ United States v. U.S. Gypsum
Co., 333 U.S. 364, 395, 68 S.Ct. 525, 92
L.Ed. 746 (1948).
III.
A.

DISCUSSION

Ineffective Assistance of Counsel

[15, 16] A prisoner alleging that he received ineffective assistance of counsel in
violation of the Sixth Amendment must
establish two elements. Strickland v.
Washington, 466 U.S. 668, 687, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984). ‘‘First, the
defendant must show that counsel’s performance was deficient.’’ Id. Review of
counsel’s actions is ‘‘highly deferential’’
and ‘‘a court must indulge a strong pre-

sumption that counsel’s conduct falls within the wide range of reasonable professional assistance.’’ Id. at 689, 104 S.Ct.
2052. Additionally, ‘‘every effort [must] be
made to eliminate the distorting effects of
hindsight, to reconstruct the circumstances of counsel’s challenged conduct,
and to evaluate the conduct from counsel’s
perspective at the time.’’ Id. In other
words, the petitioner must show ‘‘that
counsel made errors so serious that counsel was not functioning as the ‘counsel’
guaranteed the defendant by the Sixth
Amendment.’’ Id. at 687, 104 S.Ct. 2052.
[17–21] ‘‘Second, the defendant must
show that the deficient performance prejudiced the defense.’’ Id. Prejudice occurs
when there is a reasonable probability
that, ‘‘but for counsel’s unprofessional errors, the result of the proceeding would
have been different.’’ Id. at 694, 104 S.Ct.
2052. ‘‘When a defendant challenges a
death sentence TTT the question is whether
there is a reasonable probability that, absent the errors, the sentencer—including
an appellate court, to the extent it independently reweighs evidence—would have
concluded that the balance of aggravating
and mitigating circumstances did not warrant death.’’ Id. at 695, 104 S.Ct. 2052.
‘‘The likelihood of a different result must
be substantial, not just conceivable.’’ Harrington, 562 U.S. at 112, 131 S.Ct. 770. In
determining whether there is a reasonable
probability of a different result, a court
must ‘‘consider ‘the totality of the available
mitigation evidence—both that adduced at
trial, and the evidence adduced in the habeas proceeding’—and ‘reweig[h] it against
the evidence in aggravation.’ ’’ Porter v.
McCollum, 558 U.S. 30, 41, 130 S.Ct. 447,
175 L.Ed.2d 398 (2009) (quoting Williams,
529 U.S. at 397–98, 120 S.Ct. 1495 ).
[22, 23] ‘‘Surmounting
Strickland’s
high bar is never an easy task.’’ Harrington, 562 U.S. at 105, 131 S.Ct. 770 (quoting

018a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

Padilla v. Kentucky, 559 U.S. 356, 371, 130
S.Ct. 1473, 176 L.Ed.2d 284 (2010)). Thus,
‘‘[e]stablishing that a state court’s application of Strickland was unreasonable under
§ 2254(d) is all the more difficult’’ because
‘‘[t]he standards created by Strickland and
§ 2254(d) are both ‘highly deferential’ and
when the two apply in tandem, review is
‘doubly’ so.’’ Id. (internal citations omitted).
[24–27] To be clear, ‘‘whether defense
counsel’s performance fell below Strickland’s standard’’ is not the question before
a federal habeas court reviewing a state
court’s decision under § 2254. Id. at 101,
131 S.Ct. 770. As the Supreme Court has
cautioned:
Were that the inquiry, the analysis
would be no different than if, for example, this Court were adjudicating a
Strickland claim on direct review of a
criminal conviction in a United States
district court. Under AEDPA, though, it
is a necessary premise that the two
questions are different TTT [for] [a] state
court must be granted a deference and
latitude that are not in operation when
the case involves review under the
Strickland standard itself.
Id. Accordingly, where, as here, ‘‘§ 2254(d)
applies, the question is not whether counsel’s actions were reasonable. The question
is whether there is any reasonable argument that counsel satisfied Strickland’s
deferential standard.’’ Id. at 105, 131 S.Ct.
770 (emphasis added). Consequently,
‘‘[f]ederal habeas courts must guard
against the danger of equating unreasonableness under Strickland with unreasonableness under § 2254(d).’’ Id. With these
reviewing principles in mind, we discuss
each of Strickland’s elements in turn.
1. Deficient Performance
Jenkins argues that his counsel performed deficiently by failing to ‘‘investigate compelling mitigating evidence or de-

1265

velop a penalty-phase theory.’’ The state
court disagreed. It quoted decisions of our
Court that hold that ‘‘there is no per se
rule that evidence of a criminal defendant’s
troubled childhood must always be presented as mitigating evidence.’’ Jenkins,
972 So. 2d at 144 (quoting Marek v. Singletary, 62 F.3d 1295, 1300 (11th Cir.
1995)). Noting that ‘‘Downey was in charge
of the penalty phase’’ but ‘‘we do not have
the benefit of Downey’s testimony as to
what occurred and why,’’ it reviewed the
trial record to find that ‘‘counsel argued
residual doubt and Jenkins’s good character at the penalty phase.’’ Id. at 145–46. It
concluded that ‘‘Downey’s decision to concentrate on reasonable doubt and to portray Jenkins as a good person was reasonable under the circumstances.’’ Id. at 147.
[28] Jenkins insists, however, that
counsel’s failure to develop mitigating evidence about his childhood abuse was ‘‘not
the product of strategy, but rather arose
from ingnorance and inexeperiance [sic].’’
The problem for Jenkins is that, like the
state courts, this Court also does not know
what Downey did or why. The record is
silent as to his thoughts and intentions as
he prepared for the penalty phase. Given
that Jenkins bore the burden of overcoming the strong presumption of competence
and of proving Downey’s deficient performance, we are perplexed why Jenkins’s
new counsel did not have Downey testify
or submit an affidavit in the Rule 32 proceeding. See Strickland, 466 U.S. at 687,
691, 104 S.Ct. 2052 (‘‘The defendant must
show that counsel’s performance was deficient’’ and ‘‘inquiry into counsel’s conversations with the defendant may be critical to
a proper assessment of counsel’s investigation decisions, just as it may be critical to a
proper assessment of counsel’s other litigation decisions.’’ ). Nor did Jenkins testify
to the substance of his conversations with
his counsel. ‘‘The reasonableness of a trial

019a
1266

963 FEDERAL REPORTER, 3d SERIES

counsel’s acts, including lack of investigation or excluding character witnesses from
the sentencing phase, depends ‘critically’
upon what information the client communicated to counsel.’’ Chandler v. United
States, 218 F.3d 1305, 1324 (11th Cir. 2000)
(en banc) (quoting Strickland, 466 U.S. at
691, 104 S.Ct. 2052 ). There is simply no
record evidence to support Jenkins’s central assertion that Downey made no tactical choices in his preparation for the penalty phase.
Jenkins instead relies on Scofield’s Rule
32 testimony about how he and Downey
prepared for the trial and sentencing. We
acknowledge that Scofield repeatedly testified that he did not really know what he
was doing and that he failed to make strategic choices with respect to mitigating
circumstances and sentencing. But Scofield
was equally clear that Downey—the more
experienced lawyer—was in fact responsible for the penalty phase. And Scofield
also repeatedly testified that he did not
know what Downey may or may not have
done to prepare. Furthermore, his lack of
knowledge about Downey’s preparation
was understandable. He and Downey were
not colleagues who shared an office and
might reasonably be expected to know
what the other was doing much of the
time. Scofield and Downey did not even
work in the same city.
This case is unlike those in which we
have found deficient performance where
the record showed that counsel investigated insufficiently because he ‘‘waited until
the eleventh hour’’ to begin preparing for
the penalty phase while faced with ‘‘overwhelming evidence of guilt.’’ See, e.g.,
Johnson v. Sec’y, D.O.C., 643 F.3d 907, 932
(11th Cir. 2011). The limited record that
8. We note that the state court clearly erroneously stated that Downey’s fee declaration
documented 171 hours of pretrial preparation. See Jenkins, 972 So. 2d at 137. However,
the state court accurately stated that ‘‘he

Jenkins developed establishes that Downey spent at least 71 hours preparing for
trial, spread out over 17 months. The state
court interpreted this sparse record as
reflecting a penalty-phase strategy of residual doubt, the logical extension of Downey’s guilt-phase investigation of the evidence and Scofield’s pursuit at trial of an
acquittal based on reasonable doubt. See
Jenkins, 972 So. 2d at 147. In such a
situation, ‘‘[a] lawyer’s time and effort in
preparing to defend his client in the guilt
phase of a capital case continues to count
at the sentencing phase.’’ Tarver v. Hopper, 169 F.3d 710, 715 (11th Cir. 1999).
[29] We decline to dictate how many
hours or how many sessions an attorney
must spend interviewing his counsel in order to provide effective assistance. ‘‘No
absolute rules dictate what is reasonable
performance for lawyers.’’ Chandler, 218
F.3d at 1317 (citing Strickland, 466 U.S. at
688–89, 104 S.Ct. 2052 ). But even this
limited record undermines Jenkins’s assertion that Downey prepared inadequately.
Downey’s 71 hours of preparation included
35 hours of jailhouse conversations with
Jenkins during 18 separate meetings.8 According to Downey’s notes, Scofield was
present for only five of those meetings (12
hours’ worth), leaving 23 hours over 13
meetings between Jenkins and Downey
alone. Downey’s notes reveal little about
the content of those conversations beyond
broad notations such as ‘‘evidence, witnesses, general status,’’ and discussions
with Jenkins of the evidence and testimony
against him were surely relevant to Downey’s penalty-phase strategy of residual
doubt.
spent over 25 hours talking with Jenkins in
more than 10 visits to the jail.’’ Id. That
statement was not an unreasonable determination of the facts.

020a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

But the record does not reveal that
Downey knew or should have known that
Jenkins’s childhood merited investigation
beyond that which he may have done. The
record shows that Downey developed
enough of a rapport with Jenkins that,
according to his fee declaration, he ‘‘g[ave
a] Christmas gift [and] discuss[ed] how
much to tell his family.’’ But how much
Downey knew about Jenkins’s family background can only be guessed from Scofield’s
Rule 32 hearing testimony. Scofield testified that he discussed Jenkins’s background during his dozen or so jailhouse
meetings with him, and that Downey was
present for some of those meetings. Scofield—and possibly Downey—learned that
Jenkins experienced abuse as a child, that
his stepfather was brutal, and that he lived
on the streets and in juvenile institutions
because of his brutal home life. It is
against this backdrop that Downey’s presumptive ‘‘decision not to investigate must
be directly assessed for reasonableness in
all the circumstances, applying a heavy
measure of deference to counsel’s judgments.’’ Strickland, 466 U.S. at 691, 104
S.Ct. 2052.
That assessment depends a great deal
on what Jenkins told his counsel about his
background. See id. But we do not know
whether Downey was present when Scofield learned about Jenkins’s childhood
abuse, nor what else Downey may have
learned during his 13 solo discussions with
Jenkins. Therefore, ‘‘given the absence of
evidence in the record, we must assume
counsel carried out his professional responsibility and discussed mitigation with
his client.’’ Chandler, 218 F.3d at 1324;
Burt v. Titlow, 571 U.S. 12, 17, 134 S.Ct.
10, 187 L.Ed.2d 348 (2013) (‘‘It should go
without saying that the absence of evidence cannot overcome the ‘strong presumption that counsel’s conduct [fell]
within the wide range of reasonable professional assistance.’ ’’ Id. (alteration in
original) (quoting Strickland, 466 U.S. at

1267

689, 104 S.Ct. 2052 )). We will not ‘‘turn
that presumption on its head by giving
[Jenkins] the benefit of the doubt where it
is unclear what [Downey] did or did not
do.’’ Williams v. Head, 185 F.3d 1223,
1235 (11th Cir. 1999). We will not assume
that Jenkins told Downey more than he
told Scofield, and Scofield denied remembering that Jenkins told him about the
severity or frequency of his stepfather’s
physical abuse. He denied remembering
Jenkins telling him about being beaten
daily, being locked in his room 24/7, or
being forced to eat his feces. And there is
no suggestion in the record that counsel
knew or had reason to investigate the allegation of sexual abuse by his stepgrandfather. The record simply does not reflect
that Jenkins told either of his lawyers
about the severe abuse that some of the
Rule 32 witnesses later described. We will
not fault those lawyers for failing to present as mitigation this limited evidence
that they may have reasonably believed to
be unremarkable. See Strickland, 466 U.S.
at 691, 104 S.Ct. 2052.
[30, 31] To be sure, counsel’s failure
‘‘to discover all reasonably available mitigating evidence’’ may constitute deficient
performance in some cases. Wiggins v.
Smith, 539 U.S. 510, 524, 123 S.Ct. 2527,
156 L.Ed.2d 471 (2003) (quoting ABA
Guidelines for the Appointment and Performance of Counsel in Death Penalty
Cases § 11.4.1(C) (1989)). Our Court has
identified deficient performance in several
instances where counsel had good reason
to investigate the defendant’s background
but failed to do so. See Morrow, 886 F.3d
at 1147 (collecting cases). But we assess ‘‘a
particular decision not to investigate TTT
for reasonableness in all the circumstances, applying a heavy measure of deference to counsel’s judgments.’’ Strickland, 466 U.S. at 691, 104 S.Ct. 2052. Thus,
we have rejected a hard rule that counsel’s

021a
1268

963 FEDERAL REPORTER, 3d SERIES

‘‘strategic decisions can be considered reasonable only if they are preceded by a
‘thorough investigation.’ ’’ Williams, 185
F.3d at 1237 (quoting Rogers v. Zant, 13
F.3d 384, 387 (11th Cir. 1994)). Because we
simply do not know why Downey chose not
to investigate Jenkins’s childhood more
thoroughly, Downey is entitled to the presumption that this strategic decision was
reasonable. See Chandler, 218 F.3d at 1314
n. 15 (en banc) (‘‘An ambiguous or silent
record is not sufficient to disprove the
strong and continuing presumption.’’).
And though we have also rejected ‘‘a per
se rule of ineffective assistance where
counsel does not consult family members,’’
Holladay v. Haley, 209 F.3d 1243, 1252
(11th Cir. 2000), we note that Downey did
not fail altogether to consult family members. Downey had at least one substantive
conversation with Jenkins’s grandmother,
and we know from her Rule 32 hearing
testimony that she never witnessed Jenkins’s childhood abuse. Given the silence of
the record and the strong presumption of
competence to which Downey is entitled,
we decline to hold as unreasonable the
state court’s decision not to fault Downey
for not doing more when Jenkins and his
grandmother did not and could not, respectively, provide a basis for doing so. Cf.
United States v. Pease, 240 F.3d 938, 941–
92 (11th Cir. 2001) (‘‘we cannot say as a
matter of law that reliance on a client’s
statements is per se deficient performance’’). Nor did Jenkins’s counsel have an
absolute duty to put on abusive-childhood
evidence, even if they knew of it. See
Chandler, 218 F.3d at 1319 (‘‘Counsel is
not required to present every nonfrivolous
defense; nor is counsel required to present
all mitigation evidence, even if the additional mitigation evidence would not have
been incompatible with counsel’s strategy.’’); Waters v. Thomas, 46 F.3d 1506,
1511 (11th Cir. 1995) (en banc) (‘‘Our decisions are inconsistent with any notion that

counsel must present all available mitigating circumstance evidence.’’).
[32] Instead, we affirm as a reasonable
application of Strickland the state court’s
conclusion that Downey’s strategic decision
to emphasize residual doubt was reasonable. See Jenkins, 972 So. 2d at 147. In
reaching this conclusion, the State court
explained that residual doubt had been
recognized as an effective strategy in the
penalty phase of capital cases, citing cases
from this Circuit, law review articles, and
the American Law Institute’s model penal
code. These sources provided guides (i.e.
‘‘prevailing professional norms’’) from
which the state court could measure
whether Downey’s performance fell within
the wide range of reasonable professional
assistance contemplated by Strickland. See
Knowles, 556 U.S. at 123, 129 S.Ct. 1411
(‘‘[B]ecause the Strickland standard is a
general standard, a state court has even
more latitude to reasonably determine that
a defendant has not satisfied that standard.’’); see also Renico, 559 U.S. at 776,
130 S.Ct. 1855 (‘‘Because AEDPA authorizes federal court’s to grant relief only
when state courts act unreasonably, it follows that ‘[t]he more general the rule’ at
issue—and thus the greater the potential
for reasoned disagreement among fairminded judges—‘the more leeway [state]
courts have in reaching outcomes in caseby-case determinations.’’ (quoting Yarborough, 541 U.S. at 664, 124 S.Ct. 2140 )).
Indeed, we have held that ‘‘residual doubt
is perhaps the most effective strategy to
employ at sentencing.’’ Chandler, 218 F.3d
at 1320 n.28. ‘‘[E]specially when—as in this
case—the evidence of guilt was not overwhelming, we expect that petitioners can
rarely (if ever) prove a lawyer to be ineffective for relying on this seemingly reasonable strategy to defend his client.’’ Id.
at 1320 (footnote omitted); see also Tarver,
169 F.3d at 715–16 (collecting law review
articles on the merits of residual-doubt

022a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

strategy). Not only can such a strategy be
constitutionally adequate, in some cases it
may be ‘‘the most effective performance in
defense to the death penalty.’’ Tarver, 169
F.3d at 716.
Accordingly, we cannot say that the
state court’s determination that Downey’s
manifest strategy of residual doubt satisfied Strickland’s deferential standard was
objectively unreasonable under the circumstances. Jenkins’s case is precisely the sort
where reminding the jury of the misgivings it may have held about the State’s
case could have been effective. Scofield’s
guilt-phase closing argument from that
very morning, which explicitly emphasized
doubt and the weakness of the State’s
evidence, would have been fresh in the
minds of the jury.9 Although we are not
questioning the jury’s guilty verdict or the
sufficiency of the evidence, which are beyond the scope of our habeas review, we
acknowledge that the State’s case against
Jenkins was—as Downey reminded the
jury during the penalty phase—entirely
circumstantial. Indeed, Scofield maintained
postconviction that the case for reasonable
doubt was ‘‘[v]ery strong.’’ No one saw
Jenkins commit either the murder or the
robbery and kidnapping that elevated
Hogeland’s murder to a capital crime. Scofield’s guilt-phase closing argument challenged the inferential leaps the State was
asking the jury to make in finding that
Jenkins committed these capital-predicate
9.

During the penalty phase of a capital case,
‘‘[e]vidence presented at the trial of the case
may be considered insofar as it is relevant to
the aggravating and mitigating circumstances
without the necessity of re-introducing that
evidence at the sentence hearing.’’ Ala. Code
§ 13A-5-45(c).

10. In particular, Jenkins argues that his counsel should have presented ‘‘model prisoner’’
evidence. The state court noted, ‘‘Good conduct during pretrial incarceration is not necessarily a mitigating circumstance,’’ before
finding that Jenkins had not met his burden of
establishing that his counsel even had infor-

1269

offenses and that he formed the intent to
kill. This situation was not one where a
guilt-phase strategy of acquittal—and
therefore a penalty-phase strategy of residual doubt—was unreasonable in light of
the evidence. Cf. Johnson, 643 F.3d at
932–33 (deficient sentencing investigation
where defendant had confessed to two
murders).
Thus, although Downey’s penalty-phase
closing argument did not specifically invoke lingering doubt, it clearly reminded
the jury of the entirely circumstantial nature of the State’s guilt-phase case. See
Chandler, 218 F.3d at 1320 & n.6 (a strategy of ‘‘focus[ing] on obtaining an acquittal
and then, at sentencing, on lingering
doubt’’ is reasonable, even if counsel does
not use the words ‘‘lingering doubt’’ or
‘‘residual doubt’’). Downey closed this reminder by explaining to the jury how a
foundational ancient legal system proscribed capital punishment in the absence
of eyewitness testimony—the exact situation here. The state court found that Downey’s penalty-phase closing argument reflected a strategic ‘‘decision to concentrate
on reasonable doubt,’’ see Jenkins, 972 So.
2d at 147, a tactical choice entitled to a
‘‘strong presumption of correctness,’’ Marek, 62 F.3d at 1300 & n.3.
[33–37] Jenkins suggests other theories of mitigation that Downey might have
more effectively pursued,10 but our defermation about his conduct in jail. Jenkins, 972
So. 2d at 149. We agree, and we decline to
impose a requirement of sua sponte investigation of this kind in every capital case. Cf.
Williams, 529 U.S. at 396, 120 S.Ct. 1495
(finding deficient performance based in part
on not returning a call from a prison ministry
volunteer who offered to vouch for defendant’s good behavior in prison). ‘‘Surely,
counsel is not required to call a witness to
testify to facts such as lack of violent nature
when the jury has rejected such an approach
and has found that the defendant is guilty of
murder.’’ Griffin v. Wainwright, 760 F.2d

023a
1270

963 FEDERAL REPORTER, 3d SERIES

ential review under Strickland does not
ask whether counsel could possibly or ideally have been more effective. ‘‘The test for
ineffectiveness is not whether counsel
could have done more.’’ Waters, 46 F.3d at
1518. We do not ask whether an attorney’s
representation ‘‘deviated from best practices or common custom,’’ and we should
resist the temptation to second-guess an
attorney with the benefit of our hindsight.
Richter, 562 U.S. at 105, 131 S.Ct. 770.
Rather, Strickland asks only ‘‘whether, in
light of all the circumstances, the identified
acts or omissions were outside the range of
professionally
competent
assistance.’’
Strickland, 466 U.S. at 690, 104 S.Ct. 2052.
And, because § 2254(d) applies, we ask
only ‘‘whether there is any reasonable argument that counsel satisfied Strickland’s
deferential standard.’’ Harrington, 562
U.S. at 105, 131 S.Ct. 770.We conclude that
the state court did not unreasonably determine that Jenkins failed to establish objectively incompetent performance by his
counsel during the penalty phase of his
trial. Our inquiry is not ‘‘what the best
lawyers would have done. Nor is the test
even what most good lawyers would have
done. We ask only whether some reasonable lawyer at the trial could have acted, in
the circumstances, as defense counsel acted at trialTTTT We are not interested in
grading lawyers’ performances.’’ White v.
Singletary, 972 F.2d 1218, 1220–21 (11th
Cir. 1992). And ‘‘[i]f fairminded jurists
could reasonably disagree’’ about the reasonableness of counsel’s performance,
‘‘then habeas relief is due to be denied.’’
Johnson, 643 F.3d at 932.

able probability that, but for counsel’s unprofessional errors, the result of the proceeding would have been different.’’
Strickland, 466 U.S. at 694, 104 S.Ct. 2052.
Given that the jury here recommended a
sentence of death by the narrowest possible vote, 10 to 2, Jenkins need establish
only ‘‘a reasonable probability that at least
one juror would have struck a different
balance’’ between life and death. Wiggins,
539 U.S. at 537, 123 S.Ct. 2527. ‘‘A reasonable probability is a probability sufficient
to undermine confidence in the outcome.’’
Strickland, 466 U.S. at 694, 104 S.Ct. 2052.
As explained above, in measuring that
probability here, we will ‘‘evaluate the totality of the available mitigation evidence—both that adduced at trial, and the
evidence adduced in the habeas proceeding
in reweighing it against the evidence in
aggravation.’’ Williams, 529 U.S. at 397–
98, 120 S.Ct. 1495.

[38, 39] Even if Jenkins had demonstrated that his counsel performed as no
reasonable lawyer could have, he must also
demonstrate prejudice—that is a ‘‘reason-

[40] We begin our analysis by clarifying what exactly Jenkins is arguing about
prejudice. We do not know precisely which
aggravating and mitigating factors the
jury may have implicitly found before
making its recommendation of death. The
trial court found at sentencing two statutory aggravating factors: the robbery and
the kidnapping of the victim. See Ala. Code
§ 13A-5-49(4). Because none of the mitigation evidence offered in the Rule 32 hearing bears on those factors, we see no reasonable probability that the aggravating
factors would have been determined differently by the jury or the court. The court
also found at sentencing two statutory mitigating factors: no significant history of
prior criminal activity and age. See id.
§ 13A-5-51(1), (7). There was also strong
evidence of Jenkins’s intoxication, which
was a key part of Jenkins’s guilt-phase
defense and could have supported a third

1505, 1512 (11th Cir. 1985), vacated on other
grounds, 476 U.S. 1112, 106 S.Ct. 1964, 90

L.Ed.2d 650 (1986), reaff’d, 874 F.2d 1397
(11th Cir. 1989).

2.

Prejudice

024a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

mitigating factor, impaired capacity. See
id. § 13A-5-51(6).11 Jenkins does not argue
that the jury or the court would have
found other statutory mitigators in light of
the Rule 32 evidence. Rather, he contends
that the jury might have found non-statutory mitigation based on Jenkins’s abusive
childhood, low intelligence, or mental
health problems that would have outweighed the aggravating factors.12

1271

the facts surrounding Hogeland’s murder,
we, like the circuit court, are confident
that death was the appropriate punishment
for Jenkins’s actions.’’ Id. at 148.

The Rule 32 trial court found that Jenkins had not demonstrated prejudice even
assuming that counsel had performed deficiently. See Jenkins, 972 So. 2d at 138. It
concluded that he had not shown a reasonable probability that the sentencer ‘‘would
have concluded that a weighing of the aggravating and mitigating circumstances
did not warrant death’’ upon a reweighing
of the evidence. See id. It emphasized the
depravity of the crime and the aggravating
circumstances and found ‘‘that none of
[Jenkins’s] witnesses was credible and that
they had exaggerated the level of abuse
that Jenkins had been exposed to when he
was [a] child.’’ See id. at 138, 144. The
state appellate court affirmed, declining to
disturb the credibility determinations of
the trial court. Id. at 142–44. Independently reweighing the evidence, it concluded
that, ‘‘[g]iven the aggravating circumstances that were proven by the State and

In light of the state court’s credibility
determination and our doubly deferential
standard of review, the state court’s determination that Jenkins failed to establish
prejudice was not contrary to, or an unreasonable application of, Strickland. Our review of this evidence does not show that it
is likely that the jury would have concluded that death was not the appropriate
punishment if it had heard the Rule 32
evidence. Much of the proffered mitigation
evidence is, in our view, much less mitigating than Jenkins asserts. In particular, as
the state court noted, the testimony of
Jenkins’s older brother Michael was likely
to have been a double-edged sword. See
Evans v. Sec’y, Dep’t of Corr., 703 F.3d
1316, 1327 (11th Cir. 2013) (en banc) (‘‘it is
reasonable to conclude that a defendant
was not prejudiced when his mitigation
evidence was a two-edged sword’’ (quoting
Ponticelli v. Sec’y, Fla. Dep’t of Corr., 690
F.3d 1271, 1296 (11th Cir. 2012))). Michael
was the closest relative to testify at the
Rule 32 hearing and his testimony about
the abuse Jenkins experienced should have
been the most reliable, since he experi-

11. The jury had heard evidence about all
three of these statutory mitigators during the
guilt phase of the trial. Downey’s penaltyphase opening statement reviewed for the jury
all seven of the possible statutory mitigating
factors, and the court also recited them in its
jury instructions, reminding the jury that they
could consider guilt-phase evidence as well as
non-statutory mitigation. Jenkins has not established that there is a substantial probability that the jury’s recommendation would have
been different had it been more explicitly
reminded of Jenkins’s age, criminal history,
and intoxication, given that the trial court, the
Rule 32 trial court, and the state appellate
court all explicitly considered those mitigators and found them outweighed by the
aggravators.

12. Alabama law lists seven statutory mitigating circumstances, but states that mitigation
‘‘shall TTT not be limited to’’ those seven circumstances. Ala. Code § 13A-5-51. Further,
‘‘mitigating circumstances shall include any
aspect of a defendant’s character or record
and any of the circumstances of the offense
that the defendant offers as a basis for a
sentence of life imprisonment without parole
instead of death, and any other relevant mitigating circumstances which the defendant offers as a basis for a sentence of life imprisonment without parole instead of death.’’ Id.
§ 13A-5-52. A jury may recommend a sentence of death only if it finds that ‘‘one or
more aggravating circumstances TTT exist and
that they outweigh the mitigating circumstances, if any.’’ Id.§ 13A-5-46(e)(3).

025a
1272

963 FEDERAL REPORTER, 3d SERIES

enced much of the same physical abuse
himself. The brothers shared the same
filthy bedroom, received beatings from the
same paddle, and were frequently absent
from school together. But Michael’s testimony contained some discrepancies, and
he admitted to cognitive and memory
problems. Perhaps Michael’s testimony
would have made Jenkins appear more
sympathetic in the eyes of the jury—but
perhaps not. While Jenkins ran away from
home and eventually committed murder,
Michael responded to the same background by running away from home, graduating from high school, and providing
health care for both the terminally ill and
people with substance use disorders. It is
possible that the jury could even have
found Jenkins to be more culpable for not
overcoming his difficult upbringing and to
pose more of a danger of future violence.
[41] We also find reasonable the state
court’s identification of other problems
with the mitigating evidence Jenkins argues should have been presented. Hearing
that evidence firsthand in the Rule 32 proceeding, the trial court found the testimony of the cousins less credible in light of
the lack of physical abuse documented in
the school health records. See Jenkins, 972
So. 2d at 139 (noting that school records
observed a rash and gingivitis). It faulted
Pitts in particular for purporting to have
witnessed ongoing, severe abuse but taking only minimal, ineffective steps to obtain outside help. See id. It further noted
that DeLavega and Wagoner actually testified that they never saw Jenkins beaten,
and it noted all of the witnesses’ interest in
getting Jenkins off death row. All of these
factors would likely have caused a reasonable jury to discount their testimony. See
id. at 139–42. We must accept the trial
court’s credibility determinations of the
Rule 32 witnesses. Consalvo v. Sec’y for
Dep’t of Corrs., 664 F.3d 842, 845 (11th
Cir. 2011) (‘‘Determining the credibility of
witnesses is the province and function of

the state courts, not a federal court engaging in habeas review. Federal courts have
‘no license to redetermine credibility of
witnesses whose demeanor has been observed by the state trial court, but not by
them.’ ’’ (quoting Marshall v. Lonberger,
459 U.S. 422, 434, 103 S.Ct. 843, 74
L.Ed.2d 646 (1983))). The credibility of a
witness is a question of fact entitled to a
presumption of correctness under AEDPA.
Id. ‘‘In the absence of clear and convincing
evidence, we have no power on federal
habeas review to revisit the state court’s
credibility determinations.’’ Bishop v. Warden, 726 F.3d 1243, 1259 (11th Cir. 2013)
(citing Lonberger, 459 U.S. at 434, 103
S.Ct. 843 ).
[42] The state court also noted that
Wagoner testified that she was not available to testify at the trial, and it found that
Seal’s testimony would have been cumulative to that of her husband. Thus, counsel’s
failure to call those two witnesses could
not have been prejudicial to Jenkins. See
id. at 141, 142. Neither of these conclusions involves an unreasonable determination of the facts. We agree that the Rule
32 testimony of Sherry Seal was substantially similar to the testimony of her husband Lonnie Seal that the jury heard during the penalty phase. Both testified about
meeting Jenkins in California, Jenkins’s
assistance with their move to Alabama,
and his residence with them in their Alabama home. Sherry added only that Jenkins sometimes wet his bed. It was not
unreasonable for the state court to conclude that Sherry’s testimony was cumulative of her husband’s, and ‘‘a petitioner
cannot satisfy the prejudice prong of the
Strickland test with evidence that is merely cumulative of evidence already presented.’’ Rose v. McNeil, 634 F.3d 1224, 1243
(11th Cir. 2011).
Further, the school, medical, and juvenile court records that Jenkins introduced

026a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

1273

in the Rule 32 proceeding have their own
problems. As noted, they do not document
or even corroborate the severe level of
abuse alleged by some of the witnesses.
Though these documents tell a sad story,
they do not create a substantial likelihood
that the jury would have recommended
life. Although they portray Jenkins as a
victim of truly unfortunate circumstances,
they also show his unsavory delinquent
behavior. That delinquency included a history of stealing cars, and given that the
jury likely inferred that Jenkins stole the
red Mazda, new information about his history of theft may not have been especially
mitigating. Similarly, we agree with the
state court that evidence of Jenkins’s compliant conduct in pretrial detention is
‘‘minimally mitigating’’ where there had
been no evidence of jail misconduct as an
aggravator. See Jenkins, 972 So. 2d at 149;
cf. Skipper v. South Carolina, 476 U.S. 1, 5
& n.1, 106 S.Ct. 1669, 90 L.Ed.2d 1 (1986)
(good jail behavior is ‘‘potentially mitigating’’ especially ‘‘[w]here the prosecution
specifically relies on a prediction of future
dangerousness in asking for the death penalty’’).

must be substantial, not just conceivable.’’
Richter, 562 U.S. at 112, 131 S.Ct. 770
(emphasis added). We do not find the state
court’s decision that a different result was
not substantially likely to be an unreasonable application of Strickland. As we have
noted, we think it equally likely that the
jury could have rejected this alternate narrative out of hand in light of having just
convicted him of the violent murder of a
young mother. We also think it possible
that the jury could have viewed the murder as just one step in a logical progression of degeneracy that began with behavioral problems at school, continued
through the juvenile court system, and
escalated past grand theft auto into kidnapping and murder. Taken separately as
well as together, the proffered evidence
does not compel us to conclude that a
verdict of life would have been substantially likely. Because fairminded jurists could
disagree about the state court’s conclusion
about Strickland prejudice, we affirm the
denial of habeas relief on this ground.

[43] Jenkins argues that allowing the
jury to see his experience of mental, emotional, and cognitive difficulties, compounded by years of abuse and neglect and
considered alongside his mild character
and good jail behavior as an adult, would
have convinced them that Hogeland’s murder was an ‘‘aberration’’ that deserved a
punishment less severe than death. That
interpretation of Jenkins’s life story may
be conceivable. But more than mere conceivability is required to establish prejudice: ‘‘The likelihood of a different result

Jenkins argues that the district court
erred when it denied his claim that he is
intellectually disabled and ineligible for the
death penalty under Atkins v. Virginia,
536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d
335 (2002). The Supreme Court held in
Atkins that executing an offender who has
mental retardation 13 violates the Eighth
Amendment’s ban on excessive punishments. Id. at 321, 122 S.Ct. 2242. It defined mental retardation by quoting the
American Association on Mental Retardation:

13. In 2002, the Atkins Court followed prevailing convention in referring to ‘‘mentally retarded’’ offenders. We will use that now-disfavored term only when quoting or discussing
older sources. Since 2014, the Supreme Court
has exclusively used the terms ‘‘intellectually

disabled person’’ and ‘‘person with intellectual disability.’’ See, e.g., Hall v. Florida, 572
U.S. 701, 704, 134 S.Ct. 1986, 188 L.Ed.2d
1007 (2014); Moore v. Texas, ––– U.S. ––––,
139 S. Ct. 666, 672, 203 L.Ed.2d 1 (2019).

B.

Intellectual Disability

027a
1274

963 FEDERAL REPORTER, 3d SERIES

Mental retardation refers to substantial
limitations in present functioning. It is
characterized by significantly subaverage intellectual functioning, existing concurrently with related limitations in two
or more of the following applicable
adaptive skill areas: communication, selfcare, home living, social skills, community use, self-direction, health and safety,
functional academics, leisure, and work.
Mental retardation manifests before age
18.
Id. at 308 n.3. Alabama courts have followed that tripartite definition, adopting
what they consider the ‘‘broadest’’ definition of mental retardation for Atkins purposes:
[A] defendant, to be considered mentally retarded, must have significantly subaverage intellectual functioning (an IQ
of 70 or below), and significant or substantial deficits in adaptive behavior.
Additionally, these problems must have
manifested themselves during the developmental period (i.e., before the defendant reached age 18).
Ex parte Perkins, 851 So. 2d 453, 456 (Ala.
2002).
The clinical evidence adduced during the
Rule 32 hearing with respect to Jenkins’s
intellectual ability was that his IQ was 76,
reflecting ‘‘borderline intellectual functioning.’’ The record also included the report
of the Lunacy Commission 14 which found
that Jenkins was competent to stand trial,
as well as Jenkins’s school and juvenile
court records. The court also considered
all the testimony it had heard about Jenkins and reviewed the transcript of his
14. Alabama law requires a capital defendant
to be ‘‘committed to the Department of Mental Health and Mental Retardation for examination’’ if there is a question about his capacity to stand trial or if there will be a mentaldisease-or-defect defense. Ala. Code § 15-1622(a). ‘‘The assigned mental health professional(s) shall examine the defendant with

murder trial before rejecting Jenkins’s
claim of mental retardation.
On appeal, after reciting the Perkins
standard, the Alabama Court of Criminal
Appeals explained that Jenkins had not
established mental retardation:
Dr. Kirkland testified that he performed
psychological tests on Jenkins and that
Jenkins’s IQ was 76. There was evidence
presented at Jenkins’s trial indicating
that Jenkins maintained relationships
with other individuals and that he had
been employed by P.S. Edwards Landscaping Company, Cotton Lowe 76 Service Station, and Paramount Painting
Company. The record fails to show that
Jenkins meets the most liberal view of
mental retardation adopted by the Alabama Supreme Court in Perkins.
Jenkins, 972 So. 2d at 155. In this habeas
appeal, Jenkins raises arguments about all
three components of the intellectual disability showing under Atkins and Perkins,
which we address in turn.
1.

Intellectual Function

[44] The first component of intellectual
disability under Perkins is ‘‘significantly
subaverage intellectual functioning (an IQ
of 70 or below).’’ Perkins, 851 So. 2d at
456. Jenkins argues that the use of a strict
IQ cutoff of 70 was contrary to or an
unreasonable application of Atkins.
[45] We disagree. The state court’s decision that Jenkins failed to establish mental retardation in this respect was a reasonable application of the record and of
Atkins. As a threshold matter, we note
respect to determining the presence of any
mental disease or defect which, if determined
to be present, would affect the capacity of the
defendant to proceed or continue to trial or
which would affect the defendant’s criminal
responsibility at the time of the commission of
the crime.’’ Id.

028a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

that the state court did not say it was
applying a strict cutoff of 70; it merely
stated that Dr. Kirkland had measured
Jenkins’s IQ as 76. Jenkins, 972 So. 2d at
155. Under our deferential review, the
question is whether the decision that Jenkins had not established the intellectual
functioning aspect of intellectual disability
was an unreasonable application of Atkins.
The Supreme Court explained in Atkins
that it was leaving ‘‘to the State[s] the task
of developing appropriate ways to enforce
the constitutional restriction upon [their]
execution of sentences.’’ Atkins, 536 U.S.
at 317, 122 S.Ct. 2242 (quoting Ford v.
Wainwright, 477 U.S. 399, 416–17, 106
S.Ct. 2595, 91 L.Ed.2d 335 (1986)). In line
with that invitation, our Circuit has accepted Alabama’s judicial definition of intellectual disability as laid out in Perkins.15 See
Thomas, 607 F.3d at 752–53. Jenkins objects, however, that the Perkins standard,
which he characterizes as articulating a
‘‘strict cutoff’’ of 70, conflicts with more
recent Supreme Court precedent that instead requires a ‘‘clinical’’ definition that
goes beyond a single IQ score.
In particular, Jenkins points to Hall v.
Florida, in which the Supreme Court held
that when an offender’s IQ is near but
greater than 70, courts must take into
account the IQ test’s standard error of
measurement as well as non-IQ evidence
of intellectual function. See Hall v. Florida, 572 U.S. 701, 723, 134 S.Ct. 1986, 188
L.Ed.2d 1007 (2014) (‘‘This Court agrees
with the medical experts that when a defendant’s IQ test score falls within the
test’s acknowledged and inherent margin
of error, the defendant must be able to
present additional evidence of intellectual
disability, including testimony regarding
adaptive deficits.’’). But, as Jenkins concedes, our Circuit has specifically held that
15. Notwithstanding the urging of the Alabama Supreme Court, see Perkins, 851 So. 2d
at 455 n.1, the Alabama legislature has not

1275

Hall is not retroactive to cases on collateral review. See In re Henry, 757 F.3d 1151,
1161 (11th Cir. 2014) (explaining that Hall
does not supply a new substantive rule but
rather ‘‘merely provides new procedures
for ensuring that States do not execute
members of an already protected group’’).
We also note that Alabama courts have
found the Perkins standard to comport
with Hall in that it does not prevent an
offender from presenting the standard error of measurement or non-IQ evidence of
intellectual disability. See Reeves v. State,
226 So. 3d 711, 728–29 (Ala. Ct. Crim. App.
2016). Here, the state court did not unreasonably apply Atkins when it analyzed the
intellectual functioning component of intellectual disability.
Jenkins also argues that the state
court’s decision on this component in his
Rule 32 proceeding resulted from an unreasonable determination of the facts. He
asserts that his IQ score of 76, when combined with the test’s standard error of
measurement and considered alongside the
Flynn effect (which we discuss below),
does show that he has significantly subaverage intellectual function. For the reasons
that follow, we disagree.
Most fundamentally, neither of the clinicians who testified about Jenkins’s intellectual ability in the Rule 32 hearing opined
that he was mentally retarded. The closest
thing Jenkins can point to is the testimony
of Dr. Kirkland that his IQ is two standard
deviations below the mean. But his entire
testimony, in context, did not establish intellectual disability. To the contrary: Dr.
Kirkland testified that Jenkins ‘‘scored in
the range of borderline intellectual functioning which is between mild mental retardation and low average intellectual
functioning.’’ Furthermore, Jenkins’s own
enacted a statutory definition of intellectual
disability.

029a
1276

963 FEDERAL REPORTER, 3d SERIES

expert Dr. Lisak fully reviewed Dr. Kirkland’s clinical findings. He agreed with
those findings, concluding that the IQ results show ‘‘borderline intelligence.’’ It is
tremendously significant that no clinical
assessment in the entire record of these
proceedings has found that Jenkins has
mental retardation or intellectual disability.
[46] Jenkins nonetheless argues that
his IQ score of 76 establishes the intellectual component of intellectual ability when
the standard error of measurement and
the Flynn effect are considered alongside
that score. It was not unreasonable for the
state court to disagree. As we have discussed, Jenkins is not retroactively entitled to have the state courts take into
account the margin of error of the IQ test.
That statistical margin of error—5 points
in this case—takes into account characteristics of the test and variations due to
chance in order to state how confident the
tester is that the measured result accurately states Jenkins’s true, unknowable
IQ. A result of 76 with a standard error of
measurement of 5 simply means that the
tester is 68% confident that Jenkins’s true
IQ falls between 71 and 81, and 95% confident that his true IQ falls between 66 and
86. See David H. Kaye & David A. Freedman, Reference Guide on Statistics, in
Reference Manual on Scientific Evidence
211, 243–44 (3d ed. 2011); see also Hall,
572 U.S. at 738–39, 134 S.Ct. 1986 (Alito,
J., dissenting). Of course, Jenkins would
like us to consider only the possibility that
the test result over stated his IQ—but the
standard error of measurement is a twoway street. ‘‘[T]he standard error of measurement is a bi-directional concept that
does not carry with it a presumption that
an individual’s IQ falls to the bottom of his
IQ range.’’ Ledford v. Warden, Ga. Diag.
& Classification Prison, 818 F.3d 600, 641
(11th Cir. 2016).

[47] Even if Jenkins were somehow
entitled to subtract the 5-point margin of
error from his score and thereby lower his
‘‘true’’ IQ to 71, he still would not satisfy
the clinical intellectual component of intellectual disability. Thus, he sought in the
district court to introduce evidence about
the Flynn effect in order to bring his IQ
down to 70 or below. As our Court has
explained, the Flynn effect ‘‘recognizes the
fact that IQ test scores have been increasing over time’’:
The Flynn effect acknowledges that as
an intelligence test ages, or moves farther from the date on which it was standardized, or normed, the mean score of
the population as a whole on that assessment instrument increases, thereby artificially inflating the IQ scores of individual test subjects. Therefore, the IQ test
scores must be recalibrated to keep all
test subjects on a level playing field.
Thomas, 607 F.3d at 753. We have said
that ‘‘[a]n evaluator may also consider the
‘Flynn effect’ ’’ in assessing an offender’s
possible intellectual disability, id. (emphasis added), but neither we nor the Alabama
Supreme Court nor the U.S. Supreme
Court have said that a court must consider
it in order to reasonably apply Atkins. See,
e.g., Reeves, 226 So. 3d at 739 (‘‘This Court
has repeatedly held that a circuit court is
not required to accept, consider, or apply
the ‘Flynn Effect’ in determining intellectual disability.’’).
[48–50] More problematically, Jenkins
did not raise the Flynn effect issue in the
Alabama state courts. Jenkins asserts that
he implicitly raised it as part and parcel of
his Atkins claim during his Rule 32 appeal,
but we do not agree that the Alabama
courts had a full and fair opportunity to
consider this issue, because it was not
explicitly presented to them. See Kelley v.
Sec’y for the Dep’t of Corr., 377 F.3d 1317,
1349–50 (11th Cir. 2004) (holding that one
ineffective-assistance argument was unex-

030a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

hausted despite the petitioner’s general
presentation of a Strickland claim in the
state courts). Thus, under AEDPA, Jenkins is procedurally barred from raising
this unexhausted claim in his federal habeas petition. See 28 U.S.C. § 2254(b)(1)(A),
(c); Mason v. Allen, 605 F.3d 1114, 1119
(11th Cir. 2010). We will allow a prisoner
to overcome a procedural bar if he establishes cause for his default and prejudice
therefrom. See, e.g., Smith v. Jones, 256
F.3d 1135, 1138 (11th Cir. 2001). But Jenkins cannot establish prejudice from being
barred from asserting this claim now because the Supreme Court has not ‘‘clearly
established’’ that a court must consider the
Flynn effect in assessing intellectual disability. Thus, under AEDPA, it could not
form the basis for a federal habeas claim.
See 28 U.S.C. § 2254(d)(1). We therefore
conclude that the state court did not unreasonably determine the facts or unreasonably apply Atkins with respect to the
intellectual component of intellectual disability.
2.

Adaptive Function

[51] The second component of intellectual disability is ‘‘significant or substantial
deficits in adaptive behavior.’’ Perkins, 851
So. 2d at 456. Jenkins argues that the
state court, which mentioned only Jenkins’s successes in employment and social
skills, see Jenkins, 972 So. 2d at 155, failed
to consider his deficits. He adds that even
the mention of employment success does
not tell the whole story. Jenkins insists
that his jobs were menial, his employers
took advantage of him, and he held the
jobs for only a few months each.
[52] But the state court’s terse discussion of Jenkins’s adaptive behavior did not
involve an unreasonable determination of
the facts or an unreasonable application of
Atkins. To the contrary, its decision on
this issue was reasonable in light of both
the record and Atkins.

1277

Atkins elaborated that the adaptive-skill
component of intellectual disability requires substantial present limitation in at
least two of the following areas: ‘‘communication, self-care, home living, social skills,
community use, self-direction, health and
safety, functional academics, leisure, and
work.’’ Atkins, 536 U.S. at 308 n.3, 122
S.Ct. 2242 (quoting definition of American
Association on Mental Retardation). The
record supports the state court’s judgment
that Jenkins does not have substantial deficits in at least two areas. To be sure, we
will assume that Jenkins may be substantially limited in functional academics; Dr.
Kirkland assessed his reading, spelling,
and arithmetic skills at a third-grade level.
But the record does not compel a finding
of substantial present deficits in the areas
of communication, self-care, home living,
and work. Although Jenkins emphasizes
his transient employment, the record
shows he was able to find work quickly, to
work hard to support the Seals’ household
until Lonnie Seal found a job, and, later, to
move into his own home. That record evidence is inconsistent with a substantial
deficit in the area of work.
As the State observes, the facts of the
crime also fail to show significant deficits
in the areas of communication, self-care,
community use, and self-direction. Jenkins
was able to communicate well enough to
solicit an alibi and to sell his car, including
writing out a bill of sale. He then was able
to arrange for his flight from Alabama,
including purchasing a bus ticket and
hitchhiking across the country. Indeed,
throughout his trial and postconviction
proceedings, the people who knew Jenkins
as an adult consistently described a man
who did not have serious difficulties in
communicating, forming relationships,
working, and caring for himself. No witness mentioned these kinds of difficulties
in his or her testimony about Jenkins.

031a
1278

963 FEDERAL REPORTER, 3d SERIES

There was some evidence that Jenkins was
‘‘not articulate’’ and that his house was
messy, but that testimony does not rise to
the level of overwhelming evidence of substantial functional deficits that would support a conclusion that the state court unreasonably determined the facts.
Of course, the record also contains evidence of Jenkins’s childhood academic and
social deficits, attributable at least in part
to his parents’ neglect, but Jenkins’s childhood is not directly relevant to our consideration of his present limitations. Although
we acknowledge that the Supreme Court
has noted that such ‘‘risk factors’’ may
support further exploration of the possibility of intellectual disability, see Moore v.
Texas, ––– U.S. ––––, 137 S. Ct. 1039,
1051, 197 L.Ed.2d 416 (2017), the state
court record contains the results of that
exploration. Overall, that record supports
the state court’s conclusion that Jenkins
does not have substantial deficits in
adaptive behaviors.
3.

Juvenile Onset

[53] The third and final component of
intellectual disability is manifestation of
the first and second components ‘‘before
the defendant reached age 18.’’ Perkins,
851 So. 2d at 456. Jenkins asserts, the
State assumes, and we agree that the state
court did not rule upon this issue, so there
is nothing to which we must defer under
AEDPA. See, e.g., Brumfield v. Cain, 576
U.S. 305, 135 S. Ct. 2269, 2282, 192
L.Ed.2d 356 (2015). Thus, we will review
the district court’s legal conclusions on this
issue de novo, and its factual findings for
clear error. See, e.g., Grossman v. McDonough, 466 F.3d 1325, 1335 (11th Cir. 2006).
Jenkins argues that he has satisfied the
age-of-onset component by showing ‘‘a
wide range of evidence of deficits in both
intellectual and adaptive functioning
throughout Jenkins’s childhood.’’
16. In light of our determination that Jenkins

[54] In fact, the ample record of Jenkins’s childhood, as developed in the Rule
32 proceeding, does not point to intellectual disability before age 18. School assessments at age 12 reported an IQ score of
83, an adaptive behavior rating of ‘‘low,’’
and noted overall an intellectual capacity
of ‘‘average,’’ a diagnosis of dyslexia, and
‘‘poor functional skills.’’ The psychologist
attributed Jenkins’s difficulties to a combination of ‘‘[f]requent moves, changes in
schools and family instability’’ with ‘‘[l]ow
ability coupled with a specific learning disability’’ and ‘‘[l]ack of responsibility for self
control and poor use of time.’’ Although
Jenkins failed several grades of school,
teachers additionally attributed his difficulties to his behavioral problems and his
high number of absences from school.
Similarly, IQ tests ordered by the juvenile court at age 14 gave scores of 81 and
86 on different tests, in the ‘‘[d]ull–[n]ormal’’ range and reflecting ‘‘a definite learning disability.’’ These records all show a
child with serious academic deficits and
some intellectual and adaptive deficits, but
they do not clearly show an intellectually
disabled child. In particular, Jenkins’s
childhood IQ scores of 83, 81, and 86 fail to
point to intellectual disability or mental
retardation. We are not left with the definite and firm conviction that the district
court erred when it found that ‘‘Jenkins’s
[childhood]
intelligence
scores
and
adaptive functioning skills were attributable to his learning disability and other
circumstances in his life, rather than mental retardation.’’
[55] In sum, we agree with the district
court that the decision of the Alabama
Court of Criminal Appeals that Jenkins
does not have intellectual disability was
not contrary to or an unreasonable application of Atkins v. Virginia.16
has not met his burden of demonstrating that

032a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

1279

Mark Jenkins must prove that the Alabama state courts acted unreasonably in
denying him post-conviction collateral relief. 28 U.S.C. § 2254(d)(1). Jenkins has

satisfied that burden as to his ineffective
assistance of counsel claim, contrary to the
majority’s conclusion. As for his Atkins
claim, the record is insufficient to decide
whether Jenkins is entitled to relief, and
the matter should be remanded for an
evidentiary hearing. The majority, however, refuses to consider Jenkins’s request
for a hearing and relies on pre-Atkins
evidence to deny him relief. Because I

the state court’s decision was contrary to, or
an unreasonable application of, Atkins under
§ 2254(d), his request for an evidentiary hearing is denied. The dissent asserts that we are
attempting to ‘‘rewrite history’’ and refusing
to consider Jenkins’s challenge to the district
court’s denial of his request for an evidentiary
hearing, but that is simply not the case. Even
accepting the dissent’s contentions that the
COA granted in this case could be construed
as encompassing the district court’s denial of
the evidentiary hearing, the inescapable fact
remains that Jenkins did not challenge the
denial of the evidentiary hearing in this appeal. Instead, he asserted that:
‘‘[o]nce a petitioner has shown the state
court merits adjudication was unreasonable
under § 2254(d), § 2254(e)(2) allows for an
evidentiary hearing so long as the petitioner
was diligent in state court and pleads facts
that, if true, would warrant relief. TTTT Because § 2254(d)’s limitations have been
overcome TTT and Jenkins alleged facts sufficient to show he meets all three Atkins
prongs, TTT to the extent this Court finds
the record insufficient to grant relief, it
should remand for an evidentiary hearing.’’
With this statement, Jenkins is clearly not
challenging the district court’s denial of his
request for an evidentiary hearing. Indeed, at
no point in any of his filings before this Court
did Jenkins ever argue that the district court
abused its discretion in denying his request
for an evidentiary hearing. In other words,
our prior opinion erroneously addressed an
issue that was not properly before this Court,
which must be corrected, despite the fact that
the dissent, inexplicably, would prefer that we
manufacture and address an argument that
was never presented. To be clear, Jenkins’s
only discussion in this Court regarding the
matter of an evidentiary hearing was his request that (A) in the event that we determined
that he was entitled to relief under
§ 2254(d)—i.e., if we concluded that the state

court’s decision was contrary to, or an unreasonable application of, Atkins—and (B) we
found the record otherwise insufficient to
grant him relief upon de novo review of his
claim, then (C) we should remand for an
evidentiary hearing, pursuant to § 2254(e)(2).
Jenkins framed his evidentiary hearing request in this manner because, pursuant to
Cullen v. Pinholster, 563 U.S. 170, 185, 131
S.Ct. 1388, 179 L.Ed.2d 557 (2011), a § 2254
petitioner is precluded from receiving an evidentiary hearing in the district court on a
claim that was adjudicated on the merits by a
state court, unless he first demonstrates an
entitlement to relief under § 2254(d). Thus,
for the reasons previously set forth in this
opinion, because we conclude Jenkins has not
met his burden of demonstrating that the
state court’s decision was contrary to, or an
unreasonable application of, Atkins, under
§ 2254(d), Supreme Court precedent precludes an evidentiary hearing on his claim. Id.
In other words, if, and only if, the state habeas petitioner clears § 2254(d)’s hurdles, may
an evidentiary hearing be granted, provided
that an evidentiary hearing is not otherwise
barred by the limitations set forth in
§ 2254(e)(2). Id. at 185–86, 131 S.Ct. 1388;
Popev. Sec’y, Fla. Dep’t of Corrs., 752 F.3d
1254, 1263 (11th Cir. 2014) (‘‘[Pinholster]
rests on a clear, emphatic rule: if a state court
has adjudicated the claim on the merits, then
a petitioner must satisfy § 2254(d)(1) based
only on the record before that state court. TTT
It is also true that, under Pinholster, § 2254(d)
must be satisfied before a federal habeas
court may consider any § 2254(e)(2) evidence.’’). Accordingly, because Jenkins did
not overcome § 2254(d)’s hurdles, we do not
reach the point advanced by the dissent as to
whether
Jenkins
otherwise
satisfied
§ 2254(e)(2)’s requirements for an evidentiary
hearing.

IV.

CONCLUSION

The denial of Jenkins’s petition for a
writ of habeas corpus is
AFFIRMED.
WILSON, Circuit Judge, dissenting:

033a
1280

963 FEDERAL REPORTER, 3d SERIES

disagree with the majority’s conclusions, I
dissent.
I.

Ineffective Assistance of Counsel
at Penalty Phase

Jenkins first asserts that his trial counsel’s failure to investigate his abusive upbringing and to present any mitigating
evidence at the penalty phase of his trial
constituted ineffective assistance of counsel. The majority rejects this contention,
concluding that the Alabama state courts
did not act unreasonably in denying Jenkins’s ineffective assistance of counsel
claim on collateral review. I disagree and
maintain that Jenkins established both deficient performance and prejudice, entitling him to habeas relief. See Strickland
v. Washington, 466 U.S. 668, 687, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984).
A.

Deficient Performance

The Alabama state courts concluded that
Jenkins’s counsel, Stan Downey, did not
perform deficiently at the penalty phase.
The majority finds that conclusion reasonable primarily because Downey (1) was not
obligated to investigate Jenkins’s abusive
childhood and (2) reasonably pursued a
residual doubt strategy at the penalty
phase. But further review of the record
requires me to part ways with the majority’s reasoning and, ultimately, persuades
me that the Alabama courts’ conclusion
was indeed unreasonable. See 28 U.S.C.
§ 2254(d)(1) (providing that a writ of habeas corpus should not be granted to a state
prisoner unless the state court adjudication involved ‘‘a decision that was contrary
to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the
United States’’).
Jenkins offers numerous examples of
how his counsel performed deficiently in
the penalty phase of trial. First, counsel
failed to thoroughly investigate Jenkins’s
abusive childhood—an error that consti-

tutes deficient performance. In Williams
v. Allen, we held that counsel’s failure to
investigate mitigating evidence at the penalty stage constituted ineffective assistance
of counsel because counsel drew upon only
three sources of information—a psychologist’s report, a presentence investigation
report, and an interview with the appellant’s mother. 542 F.3d 1326, 1340 (11th
Cir. 2008) (Williams v. Allen); see also
Debruce v. Comm’r, Ala. Dep’t of Corr.,
758 F.3d 1263, 1270, 1273–74 (11th Cir.
2014) (finding counsel’s performance deficient where counsel interviewed the petitioner and his mother, but failed to contact
expert witnesses or other family members). In that case, we concluded that
counsel’s lack of investigation resulted in
‘‘an incomplete and misleading understanding of Williams’ life history.’’
Williams v. Allen, 542 F.3d at 1340.
Jenkins’s counsel did even less than the
attorneys in Williams v. Allen and Debruce. That is, Jenkins’s counsel conducted
no investigation. Downey did not consider
Jenkins’s poor school records, mention
Jenkins’s juvenile history, produce documentary evidence that Jenkins suffered
from severe depression, or pursue records
demonstrating Jenkins’s significant deficits
in cognitive functions. We have previously
found that a counsel’s failure to investigate
these rudimentary examples of mitigating
evidence constitutes ineffective assistance
of counsel. See Daniel v. Comm’r, Ala.
Dep’t of Corr., 822 F.3d 1248 (2016) (reversing and remanding the district court’s
dismissal of the ineffective assistance of
counsel claim and noting how counsel
should have more thoroughly investigated
Daniel’s history of physical and sexual
abuse, his poor school records, and evidence of a potential intellectual disability).
Given the lack of preparation, it is not
surprising that Downey failed to call any
witnesses to testify at the penalty stage

034a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

1281

about Jenkins’s childhood, thus failing to
give a complete depiction of Jenkins’s ‘‘excruciating life history.’’ See Wiggins v.
Smith, 539 U.S. 510, 537, 123 S.Ct. 2527,
156 L.Ed.2d 471 (2003) (finding deficient
performance where counsel did not adequately investigate petitioner’s life history
for mitigating evidence); see also Debruce,
758 F.3d at 1270, 1273–74; Johnson v.
Sec’y, Dep’t of Corr., 643 F.3d 907, 932
(11th Cir. 2011) (‘‘No reasonable attorney,
after being told by his client that he had
an abusive upbringing, would fail to interview members of his client’s family who
were readily available and could corroborate or refute the allegations of abuse.’’).1
If Downey had effectively investigated—or
investigated at all—he would have been
aware of several available and informed
witnesses. Ultimately, only one witness
testified at the penalty phase: Lonnie
Seal.2 Downey met with Seal for only 15
minutes before the penalty phase began.
That 15 minutes represents the extent of
Downey’s preparation for the penalty
phase—a wholly inadequate amount of
time under Supreme Court precedent. See
Williams v. Taylor, 529 U.S. 362, 395, 120
S.Ct. 1495, 146 L.Ed.2d 389 (2000)
(Williams v. Taylor) (finding mitigation
investigation deficient where ‘‘counsel did
not begin to prepare for that phase of the
proceeding until a week before the trial’’).

Downey did not testify, courts must presume he acted reasonably; (2) based on the
record, Downey played an active role investigating and preparing for the penalty
phase of trial; and (3) Downey’s decision to
pursue a residual doubt strategy was reasonable.3 Because each of these findings
constituted an unreasonable determination
of the facts or an unreasonable application
of clearly established federal law, Jenkins
is entitled to habeas relief. See 28 U.S.C.
§ 2254(d)(1)–(2).

Despite ample evidence of deficient performance, the Alabama Court of Criminal
Appeals (CCA) concluded that Downey
performed reasonably. The CCA’s decision
rested on three explanations: (1) because

But the record clearly illustrates Downey’s failure to investigate and overall lack
of preparation. First, Downey’s fee declarations—which the majority concedes were
‘‘detailed’’—showed no investigation of

1. The majority goes to great pains to maintain
that Downey did not know about Jenkins’s
abusive childhood. This assertion is directly
refuted by the record. Douglas Scofield, Jenkins’s lead attorney, testified that Jenkins described his traumatic upbringing at meetings
at which Downey was present.

penalty phase of trial. Given that Downey
urged Scofield to conduct Seal’s direct examination because Scofield was better acquainted
with Seal, it is likely that Scofield made the
arrangements.

2. It is unclear whether Downey contacted
Seal and requested that he testify during the

The CCA’s first rationale—presuming
Downey acted reasonably because Downey
did not testify at the Rule 32 hearing—was
based on both an unreasonable determination of facts and an unreasonable application of clearly established law. The CCA
stated that ‘‘the record is virtually silent as
to what actions were or were not taken or
what was or was not done by Mr. Downey
at trial and why’’ and therefore assumed
that Downey’s actions ‘‘could have been
reasonable and strategic under the circumstances.’’ The majority likewise assumes
Downey acted reasonably. This conclusion
is based, in large part, on Downey’s failure
to testify at the Rule 32 hearing. According to the majority, ‘‘[t]he problem for
Jenkins is that, like the state courts, this
Court also does not know what Downey
did or why.’’

3. The majority opinion endorsed the CCA’s
first and third explanations.

035a
1282

963 FEDERAL REPORTER, 3d SERIES

mitigating circumstances, and no preparation for the penalty phase. Importantly,
Downey’s fee declarations were exceptionally detailed, recounting his work in fiveminute increments. The single reference to
the ‘‘mitigating’’ phase of trial in the declarations concerned a meeting with Scofield
that occurred only a week before trial.
Other than that vague entry, no notation
indicates that Downey did anything to prepare for the penalty phase of trial during
the nearly two years he represented Jenkins.
Second, and more persuasively, Douglas
Scofield, Jenkins’s lead attorney, explicitly
testified that Downey told him that Downey had not investigated potential mitigating evidence. Both the Alabama courts and
the majority ignore that fact and instead
focus on Scofield’s testimony that, ‘‘[a]part
from what he has told me, I don’t know
what he has done.’’ This statement, to
which the majority assigns great weight, is
hardly illuminating. Of course Scofield
knows only what Downey told him. And
what Downey told him was this: Downey
did not investigate potentially mitigating
evidence before the penalty phase.
In the face of this direct evidence of
deficient performance, the Alabama courts
and the majority pivot to Downey’s failure
to testify at the Rule 32 hearing. Without
his testimony, the majority reasons, we
must assume that Downey’s decision not to
investigate was strategic and therefore his
representation reasonable. I disagree, and
I have reservations about the practical effects of the majority’s understanding of
the law. The majority suggests (if not
holds) that the absence of testimony from
an allegedly deficient attorney per se
means that the attorney’s actions were
reasonable. It is true that ‘‘counsel is
strongly presumed to have rendered adequate assistance,’’ Strickland, 466 U.S. at
690, 104 S.Ct. 2052. But a petitioner may
overcome that burden with evidence of

inadequate assistance. And that evidence
may take various forms. To satisfy the
burden, it is not necessary for the allegedly deficient counsel to testify and admit
wrongdoing. Nor is it necessary for the
record to reflect counsel’s ‘‘thoughts and
intentions as he prepared for the penalty
phase,’’ as the majority seems to require.
When evaluating whether a counsel’s performance was deficient, we ask whether
his performance ‘‘fell below an objective
standard of reasonableness.’’ Strickland,
466 U.S. at 687–88, 104 S.Ct. 2052. We do
not contemplate what counsel thought or
intended. We consider whether his performance was objectively unreasonable.
See id. Because the Alabama courts did
not apply the proper standard, their conclusion was an unreasonable application of
clearly established law. See id.
The CCA’s second reason for denying
Jenkins relief was also based on an unreasonable application of clearly established
federal law. The CCA concluded that Downey had adequately investigated and prepared for the penalty phase of trial, emphasizing that Downey met with Jenkins
on several occasions and spoke with Jenkins’s grandmother. Based on these findings, the CCA determined that Downey
provided adequate assistance of counsel
during the penalty phase. This is an unreasonable application of clearly established
law that ‘‘[a]n attorney has a duty to conduct a reasonable investigation, including
an investigation of the defendant’s background, for possible mitigating evidence.’’
Porter v. Singletary, 14 F.3d 554, 557
(11th Cir. 1994).
As previously discussed, it is clear from
the record that Downey knew of Jenkins’s
horrible upbringing yet still failed to investigate potentially mitigating evidence. ‘‘A
reasonable investigation TTT should have
included, at a minimum, interviewing other
family members who could corroborate the

036a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

evidence of abuse and speak to the resulting impact on [Jenkins].’’ Williams v. Allen, 542 F.3d at 1340. But Downey did not
conduct a single interview—of a family
member or otherwise—in preparation of
the penalty phase.4 Because Downey did
not conduct an investigation, let alone a
reasonable investigation, the CCA’s conclusion that Downey adequately investigated
potentially mitigating evidence was an unreasonable application of clearly established law.
The CCA’s third rationale for its decision—that Jenkins’s counsel reasonably
and strategically decided to focus on residual doubt—was both an unreasonable application of clearly established law and an
unreasonable determination of the facts. In
Williams v. Taylor, the Supreme Court
held that otherwise reasonable trial strategies cannot be justified unless counsel first
conducted a constitutionally adequate investigation. 529 U.S. at 395–96, 120 S.Ct.
1495. And here, Downey conducted no
such investigation. It cannot be said, therefore, that Downey’s decision—if one can
even call it that—to pursue a residual
doubt strategy was strategically reasonable. See id. The CCA’s conclusion to the
contrary was an unreasonable application
of clearly established law.
Likewise, the conclusion was an unreasonable determination of the facts. On direct appeal, the Alabama CCA noted that
‘‘[t]he evidence overwhelmingly pointed to
the guilt of the appellant.’’ Jenkins v.
State, 627 So. 2d 1034, 1041 (Ala. Crim.
App. 1992). Then, on appeal from Jenkins’s
Rule 32 petition, the CCA again acknowledged how ‘‘[t]he evidence establishing
Jenkins’s guilt was overwhelming.’’ Jenkins v. State, 972 So. 2d 111, 157 (Ala.
Crim. App. 2004); see also id. at 156 (‘‘The
amount of evidence incriminating Jenkins
4. Downey’s fee declaration reflects one telephone call he had with Jenkins’s grandmother, Doris Wagoner. But that call occurred 18

1283

TTT was overwhelming.’’). Despite the
‘‘overwhelming’’ evidence of Jenkins’s
guilt, the CCA concluded that Jenkins’s
counsel acted reasonably in presenting a
residual doubt defense during the penalty
phase of trial. But no reasonable attorney
would employ a residual doubt strategy in
the face of such overwhelming evidence.
See Johnson, 643 F.3d at 932–33. The Alabama courts’ contrary conclusion, therefore, was an unreasonable determination of
the facts.
B.

Prejudice

Jenkins’s Rule 32 petition also pleaded
sufficient facts to show that his counsel’s
deficient performance prejudiced his defense, satisfying the second Strickland
prong. To establish prejudice, a petitioner
must show a ‘‘reasonable probability that,
but for counsel’s unprofessional errors, the
result of the proceeding would have been
different.’’ Strickland, 466 U.S. at 694, 104
S.Ct. 2052. Here, the jury voted in favor of
the death penalty by the slimmest margin
permitted under Alabama law: ten votes in
favor and two votes against. Jenkins need
only establish, then, ‘‘a reasonable probability that at least one juror would have
struck a different balance.’’ Wiggins, 539
U.S. at 537, 123 S.Ct. 2527 (emphasis added). In measuring that probability, we
‘‘evaluate the totality of the available mitigation evidence—both that adduced at trial, and the evidence adduced in the habeas
proceeding in reweighing it against the
evidence in aggravation.’’ Williams v. Taylor, 529 U.S. at 397–98, 120 S.Ct. 1495.
The testimony elicited at the Rule 32
hearing was horrendous. Four family
members offered detailed, consistent testimony about Jenkins’s traumatic childhood.
The majority describes that testimony,
months before trial and, according to Wagoner, concerned a request for money.

037a
1284

963 FEDERAL REPORTER, 3d SERIES

highlighting some of the most appalling
facts elicited at the Rule 32 hearing. For
example, Jenkins’s stepfather would beat
Jenkins on a semi-daily basis, would lock
him in a room for hours without food, and
even made Jenkins eat his own feces. In
addition to the mitigating facts detailed by
the majority, the following came to light
during the Rule 32 hearing. Jenkins’s
mother had an affair while her husband,
Jenkins’s stepfather, was in prison. When
Jenkins’s stepfather was released, he took
out his frustrations about the affair on
Jenkins. Because Jenkins’s biological father was Hispanic, Jenkins’s stepfather referred to Jenkins in demeaning names like
‘‘piece of shit,’’ ‘‘Mexican trash,’’ ‘‘Puerto
Rican puke,’’ and ‘‘bastard.’’
The Rule 32 testimony also detailed the
alcohol substance abuse, drug addiction,
and incessant domestic violence that surrounded Jenkins’s childhood. And, most
shockingly, the testimony described how
Jenkins’s grandfather sexually abused Jenkins when Jenkins was just four years old.
As a result of that sexual abuse, Jenkins,
suffered bladder and bowel movement issues. Jenkins’s incontinence became a trigger for his stepfather: when Jenkins had
an accident, his stepfather would beat him
or subject him to severe degradation. For
example, Jenkins’s stepfather would hang
Jenkins’s soiled sheets in the front yard
for all the neighbors to see, make Jenkins
wear his soiled clothes on his head, and,
most disturbingly, make Jenkins eat his
own feces. The only way to escape the
abuse was by running away. So, by age
twelve, Jenkins lived on the streets.5
Jenkins also introduced medical, school,
and juvenile court records from his childhood, which shed further light on his diffi5. The CCA found parts of the family members’ testimony not credible, though it did not
explicitly discredit testimony describing some
of the worst abuse. Given the grotesque nature of the family members’ testimony, and

cult childhood and intellectual deficiencies.
Moreover, two psychologists testified
about Jenkins’s history of psychological
trauma stemming from his childhood
abuse—weighty evidence that is not even
considered in the majority’s discussion. Finally, two prison guards testified that Jenkins was the ideal prisoner during pretrial
detention. One of the guards even described Jenkins as the best inmate he had
ever supervised.
Given this compelling mitigating evidence, it is not difficult to conclude that
Jenkins established ‘‘a reasonable probability that at least one juror would have
struck a different balance’’ between life
and death. Wiggins, 539 U.S. at 537, 123
S.Ct. 2527; see also Daniel, 822 F.3d at
1276 (listing several factors that support a
prejudice finding, including (1) evidence of
impaired intellectual functioning; (2) evidence of childhood sexual abuse; and (3)
the fact that the jury voted only 10–2 in
recommending a death sentence).
II.

Intellectual Disability

Jenkins also argues that he is entitled to
habeas relief under Atkins v. Virginia, 536
U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d 335
(2002). He contends that he satisfies the
three requirements necessary to establish
intellectual disability under Alabama law—
(1) subaverage intellectual functioning; (2)
deficits in adaptive behavior; and (3) onset
before the age of 18, see Ex parte Perkins,
851 So. 2d 453, 456 (Ala. 2002)—thus, exempting him from implementation of the
death penalty. Alternatively, Jenkins argues that we should remand for an evidentiary hearing on the Atkins issue if we
the fact that their testimony was consistent,
there is reasonable probability that at least
one more juror would have been compelled to
vote against a death sentence.

038a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

determine that the record is insufficient to
decide the claim.
The majority concludes that the CCA
did not act unreasonably in concluding that
Jenkins failed to satisfy any of the Perkins
prongs. In doing so, it relies on the evidence that Jenkins presented before the
Supreme Court decided Atkins. In a previous opinion that it now vacates, the majority also addressed Jenkins’s request for an
evidentiary hearing and determined that
he was not entitled to one because he had
not diligently attempted to develop the
factual basis for his Atkins claim in state
court. Jenkins v. Comm’r, Ala. Dep’t of
Corr., 936 F.3d 1252, 1280 (11th Cir. 2019).
Alternatively, the majority concluded that
Jenkins would not be able to prove that he
was intellectually disabled at such a hearing, given the ‘‘ample evidence about intellectual ability’’ that Jenkins had already
adduced. Id. The majority now concludes
that Jenkins did not properly appeal the
evidentiary-hearing issue because it was
not explicitly specified in the certificate of
appealability (COA) or properly asserted
in his initial brief.

1285

district court’s denial of an evidentiary
hearing, the record of the appeal, and the
nature of the appeal—a constitutional
claim by a death row petitioner—support
construing the COA to encompass the evidentiary hearing issue.
First, the COA should be construed to
encompass the denial of an evidentiary
hearing because the district court’s denial
of Jenkins’s Atkins claim and its denial of
his request for a hearing were one and the
same. In the order denying Jenkins’s motion for an evidentiary hearing, the district
court stated that Jenkins would first have
to prevail under § 2254(d) to be entitled to
an evidentiary hearing. The court then addressed Jenkins’s Atkins claim at great
length and concluded that he failed to
show that the CCA’s decision was unreasonable under § 2254(d). Then it summarily stated that ‘‘[b]ecause he cannot prevail
on his Atkins claim, Jenkins is not entitled
to an evidentiary hearing on that claim,’’
without further discussion.

A. Appellate Review of Jenkins’s Request
for an Evidentiary Hearing

Second, the majority’s decision to not
consider Jenkins’s request for an evidentiary hearing is contrary to the record of
this appeal. Jenkins specifically appealed
the denial of his motion for an evidentiary
hearing in the Notice of Appeal. His motion for a COA requested review of the
district court’s determination that his Atkins claim failed—the basis of its denial of
an evidentiary hearing. The panel granted
a COA on the issue of ‘‘[w]hether the
district court erred in denying Appellant’s
claim that he is intellectually disabled and
ineligible for the death penalty under Atkins’’ without explicitly specifying his request for an evidentiary hearing.

The majority attempts to rewrite history
and now claims that Jenkins did not properly appeal the denial of an evidentiary
hearing, apparently because the COA does
not explicitly refer to an evidentiary hearing. I disagree because the basis of the

Nonetheless, in the eyes of the panel
and the parties—at least initially—the
COA encompassed Jenkins’s request for
an evidentiary hearing. In his initial brief,
Jenkins asserts that the state court record
shows that he is intellectually disabled

I disagree with the majority’s decision
that the evidentiary-hearing issue is not
squarely before this court on appeal for
several reasons discussed below. And I
also disagree with the majority’s ultimate
conclusion that the CCA did not act unreasonably in concluding that Jenkins failed
to satisfy any of the Perkins prongs, as the
record is insufficient to undergo a substantive Atkins analysis and the matter should
be remanded for an evidentiary hearing.

039a
1286

963 FEDERAL REPORTER, 3d SERIES

and, alternatively, requests the court remand for an evidentiary hearing if the
court finds the record insufficient to grant
relief. Jenkins even states that he ‘‘has not
had an opportunity to develop and present
his claim post-Atkins.’’ The government
does not challenge the propriety of addressing Jenkins’s request for an evidentiary hearing—it argues that he is not
entitled to one. And the majority squarely
addressed Jenkins’s request for an evidentiary hearing in its previous opinion, but it
agreed with the government that Jenkins
was not entitled to one. See Jenkins, 936
F.3d at 1275, 1279–80 (stating ‘‘[Jenkins]
also appeals the denial of an evidentiary
hearing on this issue’’ and ‘‘Jenkins argues
that the district court erred when it denied
his request for an evidentiary hearing on
his Atkins claim’’).

an evidentiary hearing. Jenkins specifically
appealed the district court’s denial of his
request for an evidentiary hearing, and he
has maintained on appeal that an evidentiary hearing is warranted if the court
finds the record insufficient to determine
his Atkins claim. Moreover, the parties
and the court were all in agreement—until
the majority’s abrupt change of mind—
that the scope of the appeal included the
district court’s denial of an evidentiary
hearing.

Finally, for the majority to now change
course is particularly troubling because
Jenkins is a death row petitioner raising
an Atkins claims, and he has never had a
post-Atkins hearing on his claim. See Burgess v. Comm’r, Ala. Dep’t of Corr., 723
F.3d 1308, 1316, 1318 (11th Cir. 2013)
(holding that the state court unreasonably
relied on the pre-Atkins record, where evidence ‘‘was presented in an entirely different context and without the benefit of any
explanation of how it would or would not
be consistent with’’ an intellectual disability).

I also disagree with the majority’s conclusion that Jenkins is not entitled to relief
on his Atkins claim, as it is not possible to
undergo a substantive Atkins analysis
based on the record before us. For one,
the CCA’s evaluation of Jenkins’s Atkins
claim was a mere three sentences. And,
more significantly, Jenkins never had an
opportunity to present evidence on his Atkins claim. To deny Jenkins’s claim, therefore, the majority relies on evidence from
unrelated parts of the record. Such an
approach is improper because, ‘‘[p]rior to
Atkins, [the petitioner] could not have
been expected to necessarily present evidence sufficient to support an Atkins claim
because such evidence constituted a [double-edged] sword.’’ Burgess, 723 F.3d at
1320. The evidence was a double-edged
sword, we explained, because prior to Atkins, evidence of intellectual disability
could suggest that a defendant would be
dangerous in the future; therefore, ‘‘a defendant could reasonably decide not to
highlight his mental retardation.’’ Id. at
1318. For that reason, courts should not
rely on pre-Atkins evidence—evidence

To be sure, this court’s review is limited
to the issues specified in the COA.
McClain v. Hall, 552 F.3d 1245, 1254 (11th
Cir. 2008). But we also ‘‘construe the issue
specification in light of the pleadings and
other parts of the record.’’ Murray v.
United States, 145 F.3d 1249, 1251 (11th
Cir. 1998) (per curiam). Here, the district
court did not make an independent determination concerning an evidentiary hearing; it determined that Jenkins’s Atkins
claim failed and, therefore, that Jenkins
was not entitled to either habeas relief or

I see no reason why the majority now
turns a blind eye to these parts of the
record and withholds appellate review
from Jenkins on his request for an evidentiary hearing.
B.

Jenkins’s Atkins Claim

040a
JENKINS v. COMMISSIONER, ALABAMA DEPT. OF CORR.
Cite as 963 F.3d 1248 (11th Cir. 2020)

that was presented in a wholly distinct
context—to support a finding that a petitioner is not intellectually disabled. So,
here, instead of attempting to make a medical diagnosis based on an insufficient record, we should remand for an evidentiary
hearing.
The government argues that Jenkins did
not diligently attempt to present his Atkins claim in the state courts, and so he
should be precluded from an evidentiary
hearing on this claim now.6 I disagree.
‘‘[I]f the petitioner was diligent in developing the record in the state habeas proceedings, ‘a federal court may grant an
evidentiary hearing.’’ Id. at 1320; see 28
U.S.C. § 2254(e)(2). ‘‘ ‘Diligence depends
on whether the prisoner made a reasonable attempt, in light of the information
available at the time, to investigate and
pursue claims in state court,’ and ‘will require in the usual case that prisoner, at a
minimum, seek an evidentiary hearing in
state court.’ ’’ Burgess, 723 F.3d at 1320
(alteration omitted) (emphasis omitted).
Given the unusual procedural posture of
Jenkins’s claim, Jenkins made a reasonable attempt to investigate and pursue his
Atkins claim in state court.
The Supreme Court issued Atkins v.
Virginia while Jenkins’s petition for postconviction collateral relief was pending
before the CCA. The CCA, therefore, requested supplemental briefing on the effect, if any, Atkins had on Jenkins’s petition. At that point, neither the Alabama
Supreme Court nor the Alabama legislature had interpreted the groundbreaking
case, making Jenkins’s counsel’s next step
unclear. Jenkins’s counsel nonetheless
made a reasonable attempt to pursue Jenkins’s Atkins claim—he requested that
the CCA ‘‘vacate his death sentence and
remand the case back to the lower court
6. The majority refused to grant Jenkins an
evidentiary hearing in its original opinion for

1287

for further proceedings.’’ The request appears even more reasonable when considered alongside procedurally analogous
cases decided around the same time.
At the time Jenkins’s counsel was preparing the supplemental briefing, there
had been three other post-conviction petitions for relief that shared Jenkins’s unusual procedural posture. See Clemons v.
State, 55 So. 3d 314 (Ala. Crim. App. 2003);
Wood v. State, 891 So. 2d 398 (Ala. Crim.
App. 2003); Tarver v. State, 940 So. 2d 312
(Ala. Crim. App. 2004). These three cases
are similar to Jenkins’s petition in that (1)
the petitioners were sentenced to death;
(2) the petitioners filed Rule 32 petitions;
(3) their Rule 32 petitions were dismissed
at the trial court level; (4) while their
appeals before the CCA were pending, Atkins was decided; and (5) given the Atkins
decision, each petitioner submitted supplemental briefing. In their supplemental
briefs, Clemons, Wood, and Tarver each
argued that he was intellectually disabled
under Atkins and thus it would be unconstitutional to execute him. None of the
petitioners asked for an evidentiary hearing on their Atkins claim or requested a
remand for further proceedings. Despite
the lack of request for a hearing, the CCA
remanded for an evidentiary hearing in
each case.
With these cases in mind, it would have
been reasonable for Jenkins to think that
broadly stating his Atkins claim would
constitute ‘‘diligent’’ pursuit of his claim.
Nonetheless, Jenkins did more than these
other petitioners: he specifically requested
that the CCA ‘‘vacate his death sentence
and remand the case back to the lower
court for further proceedings.’’ Thus, given
‘‘the information available at the time,’’
this reason. See Jenkins, 936 F.3d at 1279–80.

041a
1288

963 FEDERAL REPORTER, 3d SERIES

Jenkins made a ‘‘reasonable attempt’’ to
pursue his claim.
Additionally, in Alabama, post-conviction
relief petitioners with factually sufficient
claims are entitled to an evidentiary hearing. Ala. R. Crim. P. 32.9. So, if the CCA
had granted Jenkins’s request to remand
‘‘for further proceedings,’’ Jenkins would
have received an evidentiary hearing. Jenkins’s request that the CCA ‘‘remand for
further proceedings,’’ then, was effectively
equivalent to a request for an evidentiary
hearing.
III.

Conclusion

Jenkins’s Rule 32 evidentiary hearing
spanned three days. Four family members
testified about his horrific upbringing. Two
psychiatrists testified about how that upbringing affected Jenkins as an adult. Two
prison guards testified about Jenkins’s exemplary behavior while in pretrial detention. And one friend testified about Jenkins’s character. Evidence introduced also
documented Jenkins’s academic failings
and his juvenile record. In short, Jenkins
presented an abundance of compelling mitigating evidence. But the jury never heard
any of that evidence. Downey failed to
introduce it at the penalty phase. In fact,
Downey failed to investigate any mitigating evidence whatsoever. Downey’s failures cannot be attributed to strategic decisions. Nor can they be called reasonable.
His performance can only be described as
deficient. And that deficient performance
was surely prejudicial—there is more than
a reasonable probability that the horrifying and detailed Rule 32 testimony would
have persuaded one juror to vote against
sentencing Jenkins to death. Jenkins is
therefore entitled to habeas relief on his
ineffective assistance of counsel claim.
Jenkins is also entitled to a hearing on
his Atkins claim. Though Jenkins presented ample mitigating evidence at the Rule
32 hearing, he never had an opportunity to

present evidence concerning (1) his intellectual functioning, (2) his adaptive deficits, or (3) whether his potential intellectual disability manifested before he reached
18—the three requirements necessary to
establish intellectual disability under Alabama law and thus exempt an individual
from a death sentence. The CCA nonetheless decided to evaluate Jenkins’s Atkins
claim, apparently believing that the record,
which included no direct evidence concerning whether Jenkins was intellectually disabled, was sufficient to resolve the complex
medical issue. In just three sentences, the
CCA arrived at a diagnosis: not intellectually disabled.
Despite the insufficient factual record,
the majority fails to remand for an evidentiary hearing and relies on unrelated, preAtkins evidence to deny Jenkins’s Atkins
claim. Equally troubling, the majority now
refuses to consider Jenkins’s request for
an evidentiary hearing, which he has maintained in the district court and this court,
and which is properly before this court on
appeal. I therefore dissent.

,
UNITED STATES of America,
Plaintiff-Appellee,
v.
Mikel CLOTAIRE, DefendantAppellant.
No. 17-15287
United States Court of Appeals,
Eleventh Circuit.
(June 30, 2020)
Background: Defendant was convicted in
the United States District Court for the

